U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspection Division




                          Federal Bureau of Investigation’s
                         Integrity and Compliance Program
                                     November 2011




                                      I-2012-001 

                                    EXECUTIVE DIGEST 



      In June 2007, the Federal Bureau of Investigation (FBI) established the
Integrity and Compliance Program (ICP) to identify and mitigate legal
compliance risks within the FBI.1 The ICP is designed to proactively identify
and correct weaknesses in policy, training, monitoring, and auditing that could
result in FBI employees violating the law as they conduct their work. The ICP
is modeled on corporate compliance programs that institute systematic
procedures to ensure that companies adhere to the laws that govern them.

       The ICP’s goal is to prevent FBI employees from violating the laws and
policies that govern their work by: (1) managing the Ethics and Standards of
Conduct program (ethics program) and (2) identifying and reducing legal
compliance risks in operations FBI-wide and at the program level.2 The FBI’s
Office of Integrity and Compliance (OIC) manages the ICP.3 The OIC’s mission
is to “develop, implement and oversee a program that ensures that there are
processes and procedures in place that facilitate FBI compliance with both the
letter and spirit of all applicable laws, regulations, and policies.”4 The purpose
of this Office of the Inspector General (OIG) review was to evaluate the
effectiveness of the ICP.

      According to an FBI report about the ICP, the impetus for the FBI’s
establishment of the ICP was a 2007 OIG report that found FBI personnel had
not complied with laws and policies governing the use of National Security
Letter authority.5 The OIG report stated that the FBI issued these letters


       1  The FBI defines a legal compliance risk as potential harm to the FBI caused by
failures of FBI personnel to comply with the laws and policies governing FBI operations.

       2 The FBI plans to expand its bureau-wide and program-level efforts to identify and
reduce legal compliance risks in the future to include the participation of field office personnel.

       3   The ICP is not a separate office within the FBI. Except for OIC staff members who
manage the program full time, the remaining work of the program is conducted by FBI
employees and committees who do the work of the program in addition to their regular duties.
In this report we attribute actions to the ICP to convey that various individuals or entities are
collectively performing the ICP’s functions.

       4   FBI Policy Directive 0002D, FBI Integrity and Compliance Program, June 25, 2007.

       5  FBI, The 2008 State of the Integrity and Compliance Program, and U.S. Department of
Justice Office of the Inspector General, Review of the Federal Bureau of Investigation’s Use of
National Security Letters (March 9, 2007). Under five statutory provisions, the FBI can use
National Security Letters to obtain – without a court order – records such as customer
                                                                                          (Cont’d.)
U.S. Department of Justice                                                                 i
Office of the Inspector General
Evaluation and Inspections Division
without proper authorization, made requests outside of the scope allowed by
statute, and conducted unauthorized collection of telephone or Internet e-mail
transactional records.

       At the FBI-wide level, FBI executives identify, analyze, and mitigate legal
compliance risks that affect the FBI as a whole and that may involve
coordination between more than one functional area within, and sometimes
outside of, the FBI to resolve. At the FBI-wide level, FBI executives identify and
direct actions through a series of steps: risk identification, risk prioritization
and selection, risk analysis, risk mitigation, and audit. OIC staff members
manage each step of this process, and different FBI committees and employees
provide the subject matter expertise needed at each step. In addition, the FBI
Inspection Division audits the steps taken to mitigate the risks to determine
whether the identified risks actually have been reduced.

       At the program level, managers of the FBI’s 53 major programs identify
and mitigate risks that do not involve coordination outside of their program
areas to resolve. These managers are responsible for programs that encompass
the FBI’s operations and administrative functions, ranging from
counterintelligence to violent crime and from information technology
management to fleet management and transportation services.6 Managers of
the major programs identify their highest priority compliance risks and submit
reports twice a year to the OIC and to their divisions’ Assistant Directors that
include descriptions of the identified risks and the program managers’ plans for
mitigating them. The OIC reviews these reports to make sure that the issues
identified are legal risks and that the plans to address the risks are realistic
and can be reasonably expected to reduce the risks. According to the template
program managers use in developing risk mitigation plans, their process
should also include an audit or a way to monitor the mitigation steps.

      Additionally, the OIC manages the FBI’s ethics program, which entails
providing guidance and training to employees that emphasize the importance of
complying with laws and policies that govern their work and the importance of
reporting non-compliance with those laws and policies. The OIC is also



information from telephone companies, Internet service providers, financial institutions, and
consumer credit companies.

       6  While there are many programs in the FBI, this review focused on the FBI’s 53 major
programs because these are the only programs the ICP requires to report to the OIC. The OIC
determined the FBI’s 53 major programs by reviewing budget data, consulting with the FBI’s
Inspection Division to identify programs that are required to periodically report on their
performance to that division, and after review and approval by senior management.


U.S. Department of Justice                                                             ii
Office of the Inspector General
Evaluation and Inspections Division
responsible for maintaining open communication channels for FBI employees
to report compliance concerns and for assessing the ICP.

RESULTS IN BRIEF

       Through the ICP, the FBI implemented strategies that have started to
reduce legal compliance risk in FBI operations. We found that, since the ICP’s
inception in 2007, the ICP has used a variety of sources to identify 206 FBI-
wide potential risk indicators and 112 program-level risks.7 As will be
explained below, these risks have included potential non-compliance in the
FBI’s use of administrative subpoenas and confidential human sources, as well
as potential criticism and litigation over backlogs of DNA samples. In addition,
the FBI has taken steps to reduce risk by implementing mitigation plans for 13
FBI-wide risks and 16 program-level risks.8 We reviewed 11 of the 13 FBI-wide
plans and determined that the process the ICP used to develop them addressed
the areas of compliance risk and involved relevant stakeholders. Based on the
thoroughness of these plans, we believe that if the FBI implements the actions
as described, it is reasonable to expect that the actions will reduce compliance
risk in those areas. In addition, there were five risk areas where we assessed
evidence about whether compliance risk was reduced and found that it was
reduced in three of these areas. Further, the OIC manages and has enhanced
the FBI’s ethics program and promotes reporting of compliance concerns.

       However, we identified areas for improvement in the ICP that, if
addressed, could enhance its effectiveness and sustainability. We found that
most FBI executives and managers no longer consistently use the risk
assessment methodology designed for the ICP to evaluate identified risks.
Currently, risk assessment and selection is informal, unsystematic, and
undocumented, resulting in ICP participants not necessarily considering the
factors identified by the FBI to prioritize risk, which can result in a
prioritization inconsistent with the program’s established goals.

      Further, at the program level, there is no verification that mitigation
actions are complete and effective in reducing compliance risk. Because of this
lack of monitoring, the FBI cannot be sure that it has successfully
implemented the risk reduction strategies for the selected risks. Also, the ICP
has not yet been fully implemented in field divisions and, as a result, the field

       7 Before Executive Management Committees review potential risks and determine
whether they may be a concern for the FBI, the FBI considers them “potential risk indicators.”

       8  According to the FBI, since the ICP’s inception, at the FBI-wide level, 26 risk
mitigation plans have been developed and approved to address identified risks but only 13 have
been implemented.


U.S. Department of Justice                                                           iii
Office of the Inspector General
Evaluation and Inspections Division
divisions’ role in risk identification and reporting to the OIC is undeveloped.
Finally, the OIC has not established a way to evaluate the ICP’s overall
effectiveness or the effectiveness of its processes. Without evaluation, the OIC
cannot identify where changes in the program should occur or ensure the
sustainability of the ICP.

       The following sections discuss our findings in more detail.

Through the ICP, the FBI implemented strategies that have started to
reduce compliance risk in FBI operations and activities.

      The ICP’s identification and mitigation of legal compliance risks before
they develop into problems have the potential to significantly reduce legal
compliance risk in the FBI operations. Prior to the ICP, the FBI identified and
addressed compliance risks unsystematically through efforts that were generally
stove-piped within specific divisions. Now the FBI addresses compliance risks
systematically and in a way that involves relevant stakeholders and subject
matter experts within and outside of the FBI. The following two sections discuss
the ICP’s efforts to reduce legal compliance risk in more detail.

The ICP has identified risks using a variety of sources.

      We found that the ICP uses a variety of sources at both the FBI-wide and
the program levels to identify compliance risks, as FBI policy requires.9
Sources include FBI executives, program managers, employees, and open
source information such as newspaper articles and government oversight
reports. The ICP’s establishment of a systematic process for risk identification
has improved the FBI’s ability to identify potential compliance risks and senior
management’s knowledge of compliance weaknesses. According to the FBI
Director, one of the most important aspects of the ICP is that it identifies gaps
and vulnerabilities.

       At the FBI-wide level, there are five Executive Management Committees
that identify and select risks to mitigate. Each committee identifies and selects
risks that pertain to its functional branch. The five Executive Management
Committees corresponding with the FBI’s branches are administrative;
criminal, cyber, response, and services; information technology; national
security; and science and technology.10 Each committee is chaired by the

       9    FBI Policy Directive 0002D, FBI Integrity and Compliance Program, June 25, 2007.

       10 The administrative Executive Management Committee is made up of the Human
Resources Branch and various entities in the FBI Director’s Office with administrative
responsibilities.


U.S. Department of Justice                                                           iv
Office of the Inspector General
Evaluation and Inspections Division
Executive Assistant Director in charge of that branch and includes the
Assistant Directors in charge of the divisions within that branch. The
committees meet quarterly to discuss the progress toward mitigating previously
identified risks that were selected for mitigation and to identify new risks to
address.

       FBI executives told us that they identified risks based on knowledge of
their branches and through consultation with the managers within their
branches and divisions. In addition, the OIC provides FBI executives with
Leading Risk Indicator Reports that summarize the risks the OIC staff compile
from its own research of open source information, government reports, and
new regulations, and from risks that individual FBI employees and employee
groups report to the OIC. From the ICP’s inception in 2007 to August 2011,
the FBI identified 206 indicators of potential FBI-wide risk to be considered by
the 5 Executive Committees and selected 50 of those risks for analysis and
potential mitigation.

       At the program level, the managers in charge of the 53 major programs
are required to determine their highest priority risk within their programs and
report their selections to the OIC in bi-annual reports. The programs that are
required to participate span 20 different FBI divisions and all 5 of the FBI’s
functional branches. In a sample of bi-annual reports covering actions
initiated before or during the reporting period of December 2009 to June 2010,
we found that 44 program areas reported program risks. Of the nine other
programs, the OIC had exempted three from reporting program risks. The
remaining six program area managers had not submitted reports. In these
instances, the OIC directed managers to identify and submit risks “in
accordance with FBI policy” in their next bi-annual reports.

Through the ICP, the FBI took steps to reduce legal compliance risk by
implementing mitigation plans.

       The ICP has implemented mitigation plans at both the FBI-wide and
program levels. At the FBI-wide level, the ICP implemented 13 mitigation
plans. We reviewed 11 of these plans.11 Five of the implemented plans had
been audited. We found that the mitigation steps the FBI implemented for
three of the five audited plans sufficiently mitigated the risks, but additional
efforts were required to completely mitigate the other two plans.12 Although

       11  We did not review 2 of the 13 implemented mitigation plans because they contained
classified material, and we determined that access to that material was not essential to our
review.
        12 We could not conclude that the FBI reduced actual non-compliance because it did

not establish baselines of non-compliance before implementing mitigation steps that we could
                                                                                         (Cont’d.)
U.S. Department of Justice                                                               v
Office of the Inspector General
Evaluation and Inspections Division
the mitigation plans for the remaining six risks appear reasonable, we cannot
determine whether they have mitigated the risks because information
necessary for us to make this assessment (such as an audit or mitigation
action that we could observe in the field) was not available at the time of our
review. We provide examples of these risks, the actions the ICP took to
mitigate them, and the outcomes of the mitigation steps in the body of this
report.

       At the program level, we reviewed the reports that program managers
submitted to the OIC covering their risk mitigation work completed or initiated
between December 2009 and July 2010. We found that OIC staff members had
determined 16 risks to be closed (mitigated) and that managers had begun to
mitigate an additional 86 risks. We cannot conclude that compliance risk in
these areas was mitigated because the ICP does not require verification of
program-level mitigation actions, but the mitigation actions for 5 of the 16
risks established internal controls that we believe could reasonably be expected
to reduce the risk.

       The remaining 11 risks entailed mitigation actions, such as issuing
additional guidance, but did not specify the establishment of internal controls,
or additional internal controls if regular monitoring efforts were already in
place, which would have provided more assurance of the mitigations’
effectiveness. While the actions established in the mitigations appear
reasonable, without adequate verification that they resulted in the needed
changes, it is not possible to know whether the steps were adequate or whether
additional steps are required. For example the National Name Check Program,
which disseminates information from FBI files to other federal agencies when
requested, identified a risk that inadvertent release of protected information
might occur. To mitigate the risk, the program developed a standard operating
procedure to prevent inadvertent release of protected information. It also
required all National Name Check Program employees to attend annual training
covering the guidelines for disseminating certain information. However, other
than the Quality Assurance Program that was already in place, which reviews
about 10 percent of outgoing work, no monitoring was put into place to see if
the training was successful or if the risk of inadvertent disclosure was
mitigated.

      In some cases, such as in the example above, there may be a monitoring
mechanism in place, but in current practice program managers do not always
share information about the existing monitoring or its results with the OIC. If
the OIC is not aware of monitoring and the program does not report the results

compare to non-compliance after implementation. The ICP does not measure whether its
actions reduce non-compliance.


U.S. Department of Justice                                                       vi
Office of the Inspector General
Evaluation and Inspections Division
of monitoring efforts, there is still no way to ensure that the risk mitigation
occurred and was effective.

The OIC manages the FBI’s ethics program and promotes reporting of
compliance concerns.

      The OIC established and maintains open communication channels for
FBI employees, and the FBI supported the OIC’s objectives by establishing new
human resource initiatives that encourage compliance and reporting of
compliance concerns. For example, the OIC developed new ethics training
videos and issued a non-retaliation policy for reporting compliance concerns.
We also examined all complaints of retaliation by FBI employees between
January 2007 and February 2011 and found no case in which an employee
who reported a compliance concern to the OIC later reported being retaliated
against for doing so.

       However, during our site visits we found that most field division
employees we interviewed were unaware of two of the new human resource
initiatives that affect them: the Compliance Helpline employees can call
anonymously to report compliance concerns and an award to recognize
employees for supporting the ICP. We found that only 20 percent (14 of 70) of
the field division employees were aware of the Compliance Helpline and only
13 percent (8 of 64) were aware of the award. This lack of awareness limits the
effectiveness of these OIC efforts to promote the reporting of compliance
concerns throughout the FBI.

The FBI could improve the ICP’s effectiveness and sustainability by
addressing certain factors.

       We identified areas for improvement in the ICP at both the FBI-wide and
program levels. We found that FBI executives and managers do not use the
risk assessment methodology the ICP designed to evaluate risks. Instead, risk
assessment and selection are informal, unsystematic, and undocumented. In
addition, the ICP does not have a method to ensure that mitigation actions
effectively address program-level risks. Further, the ICP is not fully
implemented in field divisions. Finally, the ICP has not established a way to
measure progress toward achievement of its goals. Each of these areas for
improvement is discussed in the sections below.




U.S. Department of Justice                                                 vii
Office of the Inspector General
Evaluation and Inspections Division
FBI executives and managers are not using the ICP’s risk assessment
methodology, causing risk selection to be informal, unsystematic, and
undocumented.

        The FBI developed a risk
assessment methodology based             The FBI’s Risk Assessment Methodology
on its research of best practices
of corporate compliance                   To prioritize risks, the FBI developed a
                                     methodology to determine a numeric score for
programs (see text box) and the      each risk based on the frequency of the activity,
factors of risk it deemed            consequence of non-compliance, and the
important. The OIC used the          probability of non-compliance. The first six
methodology initially to help        factors below help determine the probability of
FBI executives understand how        non-compliance. The seventh factor helps to
                                     determine the consequence of the activity.
to assess risk in the ICP, and       Participants also were to consider potential for
executives used the                  legal action and reputational harm to the FBI
methodology to rank risks that       when assessing consequence.
they identified early on in the
ICP. However, at the FBI-wide        1. Complexity.	 Does activity occur in multiple
                                        locations or internationally, involve external
level, only one of the five             agencies, or have many legal requirements?
committees of executives             2. Internal Risk Indicators. Is there a history of
currently uses the methodology          compliance issues? Is there an existing process
at all, and that committee’s use        to assess risk in the area?
of it is limited. In lieu of using   3. External Risk Indicators. Have other agencies
                                        had problems with the activity? Is there a
the risk assessment                     trend in civil liability or overturned convictions,
methodology, FBI executives’            or external reports citing compliance issues?
process for prioritizing and         4. Environment. Is the activity new or does it
selecting risks for mitigation          require new technology? Is there pressure to
has been informal and based             conduct the activity?
                                     5. Workforce. Is there turnover among key
on discussion that was not              personnel? Is the workforce experienced and
documented. FBI executives              adequately trained?
we interviewed told us that          6. Internal Work Process. Is activity manual or
they assessed risk through              automated? Does it allow individual discretion?
discussion before and during            Does it require approval and monitoring? Are
                                        responsibilities clearly defined?
the quarterly Executive              7. Impact on Privacy and Civil Liberties.	 Does
Management Committee                    activity affect privacy, First Amendment rights,
meetings. The minutes of these          individuals directly, or other civil liberties?
meetings include updates on
the mitigation actions for risks selected for mitigation, but do not document
how participants prioritized or selected risks.

     Similarly, at the program level, only 29 percent (13 out of 45) of the
managers who responded to a survey we conducted reported using the
methodology or the factors in it to determine their program’s risks. The
remaining 71 percent (32 out of 45) appeared to be using their own criteria.

U.S. Department of Justice                                                         viii
Office of the Inspector General
Evaluation and Inspections Division
We found risk prioritization and selection at the program level is also informal
and undocumented. Program managers describe the risks they have identified
and their plan to mitigate them in written reports to the OIC. The process does
not require in-person contact between OIC staff members and managers.

       Requiring a consistent methodology for assessing risk would help the ICP
communicate its expectations about the factors to consider in prioritizing and
selecting risks to new participants and participants who may not receive in-
person guidance in identifying risks. Because the FBI plans to expand field
division participation in the ICP and because the FBI’s rotation policy ensures
that the ICP will constantly have new participants, using established factors is
important for the ICP’s effectiveness.

        Using this risk assessment methodology would also ensure that
participants consider the risk factors the FBI deems important. For example,
one of the factors included in the methodology the OIC designed for the ICP is a
risk’s impact on privacy and civil liberties. This is an important factor, but at
the FBI-wide level only 33 percent (5 of 15) of executives we interviewed said
that they considered this factor when they made their assessments.13 If FBI
executives and program managers are not using the methodology, they may not
consider this factor when comparing risks, even though threats to privacy and
civil liberties caused by the FBI’s misuse of its National Security Letter
authority was a significant reason the FBI established the ICP.14

The ICP does not require external verification for major program mitigation
efforts, and the OIC lacks the authority to require program-level participation.

       At the program level, we found that the ICP lacks a way to ensure that
risk reduction strategies are implemented and that they reduce compliance
risks. Program-level mitigation does not include any independent assessment
of implemented strategies. In no case did we find that a mitigated program risk
had external verification to ensure that the mitigation actions had been taken
and to assess the effectiveness of those actions. Verification could be as a
simple as someone checking that the plan is implemented and operational, and
that the risk appears to be mitigated. Without this step, the ICP cannot ensure
that managers’ mitigation actions are complete or effective.



       13 The other 10 executives may also have considered this factor but they did not tell us
that they did when we asked, “What factors do you consider when assessing risks?”

       14 U.S. Department of Justice Office of the Inspector General, Review of the Federal
Bureau of Investigation’s Use of National Security Letters (March 9, 2007).


U.S. Department of Justice                                                            ix
Office of the Inspector General
Evaluation and Inspections Division
       Additionally, the OIC staff oversees the program-level risk mitigation, but
does not have the authority to require program managers to participate. FBI
policy requires major program managers to participate in the ICP, but we found
that 6 of 53 (11 percent) major program managers did not.15 In these
instances, the OIC directed managers to identify and submit risks “in
accordance with FBI policy” in their next bi-annual reports.16 Assistant
Directors directly supervise program managers and could ensure managers’
participation, but we found that only one of the nine Assistant Directors we
asked about program-level risk mitigation was aware of it. Four of the 10 OIC
staff members we asked said that Assistant Director buy-in to program-level
mitigation was important but not consistent. Involving Assistant Directors
would help ensure that program managers prioritize program-level risk
mitigation.

The ICP is not fully implemented in field divisions.

       While there are plans to implement risk identification and mitigation in
field divisions in the future, the OIC Assistant Director stated that the focus of
the ICP has been to implement the program first at headquarters. Nonetheless,
in 2007, the FBI created the Division Compliance Officer position as a collateral
duty in FBI field divisions to provide a single point of contact for each field
division to support the ICP.17 We found that, as of fall 2010, field divisions had
appointed Division Compliance Officers, but the OIC had not fully developed or
used this position. The OIC also had not established a method to identify and
mitigate compliance risks in field divisions. The three Division Compliance
Officers in the field divisions we visited indicated that they did not yet perform
any additional tasks as the point of contact for the OIC.

       In August 2011, the OIC’s Assistant Director gave us a draft policy that,
if approved, would formally implement the ICP in the field. This policy would
clarify the role of the Division Compliance Officer and require all field divisions
to implement division compliance councils. These councils would identify
potential compliance risks to determine whether they constitute actual risk
within a division. Once actual risks are identified, the councils would develop,
implement, and track mitigation plans to completion. The councils would


       15 FBI Policy Directive 0126D, Application of the Integrity and Compliance Program to
FBI Program Management, October 24, 2008.

       16  In the bi-annual reports, which are reviewed by OIC staff, program managers are to
include a description of risks identified and their plan for mitigating the highest priority risk.

       17   FBI Policy Directive 0005D, FBI Division Compliance Officer, October 1, 2007.


U.S. Department of Justice                                                                x
Office of the Inspector General
Evaluation and Inspections Division
inform the OIC of compliance risks that could affect multiple field divisions or
the FBI as a whole.

The OIC has not established a way to assess the ICP’s overall effectiveness or to
measure progress toward achievement of ICP goals.

       The OIC has not evaluated the effectiveness of the ICP since 2008 or
measured its progress toward achievement of the ICP’s goals. FBI policy states
that “the OIC shall evaluate the effectiveness of and prepare and deliver to FBI
senior management an annual report on the state of the ICP.”18 However, since
the initial report in 2008, the OIC has not prepared this report. Currently the
ICP uses a regular survey to assess FBI employees’ attitudes toward
compliance every 18 months and a monthly report to track progress toward
mitigating specific risks. However, the OIC lacks a method or report for
providing an assessment of the ICP overall. Without a way to assess the ICP
and a way to measure progress toward accomplishment of the ICP’s goals, the
OIC cannot determine the ICP’s effectiveness at reducing compliance risk or
identify where changes in the program should occur to ensure the
sustainability of the ICP.

CONCLUSION AND RECOMMENDATIONS

      We conclude that while there remain areas for improvement in the FBI’s
ICP, the program is implementing risk reduction strategies throughout the FBI
and has begun to reduce compliance risk. The ICP’s identification, analysis,
and mitigation of legal compliance risks FBI-wide and at the program level
before they develop into problems has the potential to significantly reduce legal
compliance risk in FBI operations. We found that three of the five implemented
mitigation plans at the FBI-wide level reduced compliance risk by making
changes to areas such as policy, training, and operations. We believe that the
concept of the FBI’s OIC program has been beneficial to its efforts to monitor
and enhance compliance with legal requirements, and that other agencies may
wish to consider implementing a similar kind of program.

       We also identified several areas in the ICP that, if refined, could improve
the FBI’s ability to reduce legal compliance risk and the ICP’s sustainability.
First, increasing employee awareness of the Compliance Helpline and other OIC
human resource initiatives could further promote a culture of compliance and
the reporting of compliance concerns.

      Second, FBI executives and managers are not using the ICP’s risk
assessment methodology, causing risk selection to be informal, unsystematic,

       18   FBI Policy Directive 0002D, FBI Integrity and Compliance Program, June 25, 2007.


U.S. Department of Justice                                                           xi
Office of the Inspector General
Evaluation and Inspections Division
and undocumented. Consequently, current and future participants in the
processes, particularly those at the field division level, may not know how they
are to select risks and may not consider all the factors the FBI deems
important. Third, the FBI cannot ensure that program-level risks are fully
mitigated because the ICP does not require verification of program-level risk
mitigation actions and Assistant Director involvement in program mitigation is
lacking.

       Fourth, the ICP is not fully implemented in field divisions. Each field
division appointed a Division Compliance Officer, but the OIC has not fully
developed or used this position or established a method to identify and mitigate
compliance risks in field divisions. Because field division employees are more
likely to report compliance concerns to officials within their field division rather
than to headquarters, the ICP’s effectiveness at identifying compliance risks
affecting the field depends on the Division Compliance Officer’s role being
developed through a structure for risk identification and mitigation.

       Finally, the OIC has not yet established a way to measure progress
toward accomplishment of the ICP’s goals and does not prepare annual reports
of the ICP’s activities as required. As a result, the OIC does not have a way to
assess the ICP’s effectiveness or to identify where changes in the program
should occur.

        In this report, we make five recommendations to the FBI to help the ICP
improve its efforts to reduce legal compliance risks. For example, we
recommend that the OIC increase awareness of the Compliance Helpline and
other OIC human resource initiatives. In addition, we recommend that the FBI
consider using a formal risk assessment methodology that includes a specific
list of criteria that must be considered. To enhance the effectiveness of
mitigation at the program level, we recommend increased Assistant Director
involvement and that the ICP require program-level risk mitigation to include a
verification step. To ensure that the FBI can assess the overall effectiveness of
the ICP, we recommend that it comply with existing requirements for an
annual report assessing the effectiveness of the ICP; for example, a report that
articulates the program’s goals, shows progress toward accomplishing them,
and identifies areas for improvement.




U.S. Department of Justice                                                 xii
Office of the Inspector General
Evaluation and Inspections Division
                                    TABLE OF CONTENTS 




      BACKGROUND ................................................................................. 1 


      RESULTS OF THE REVIEW ............................................................ 13 


            The ICP is beginning to reduce the FBI’s compliance risk ......... 13


            Addressing areas for improvement could enhance the
            ICP’s Effectiveness ................................................................... 26


      CONCLUSION AND RECOMMENDATIONS ...................................... 35 


      APPENDIX I: FBI COMPLIANCE PROGRAM POLICIES.................... 37 


      APPENDIX II: LIST OF FBI MAJOR PROGRAMS ............................. 38 


      APPENDIX III: METHODOLOGY OF THE OIG REVIEW ................... 40 


      APPENDIX IV: FBI STRATEGIC SHIFTS ANTICIPATED BY OIC ....... 44 


      APPENDIX V: FBI EMPLOYEE SURVEY QUESTIONS ..................... 45 


      APPENDIX VI: FBI RESPONSE TO DRAFT REPORT........................ 46 


      APPENDIX VII: OIG ANALYSIS OF FBI RESPONSE......................... 49 





U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                       BACKGROUND 



       In June 2007, the Federal Bureau of Investigation (FBI) established the
Integrity and Compliance Program (ICP) to proactively identify and correct
weaknesses in policy, training, monitoring, and auditing that could result in
FBI employees violating the law as they conduct their work. The FBI defines a
legal compliance risk as harm to the FBI caused by failures of FBI personnel to
comply with the laws and policies governing FBI operations. The ICP is
modeled on corporate compliance programs that institute systematic
procedures to ensure that companies adhere to the laws that govern them.


      According to the FBI’s 2008 State of the Integrity and Compliance Program
report, the impetus for the FBI’s establishment of the ICP was a 2007 Office of
the Inspector General (OIG) report that found FBI personnel had not complied
with laws and policies governing the use of National Security Letter authority.19
The OIG report stated that the FBI had issued these letters without proper
authorization, made requests outside of the scope allowed by statute, and
conducted unauthorized collection of telephone or Internet e-mail transactional
records.

       We conducted this review to assess the performance of the FBI’s ICP.
The objectives of this review were to evaluate how the FBI’s ICP: (1) identifies
risks of non-compliance with laws, regulations, rules, and FBI and Department
of Justice policies; (2) assesses identified risks; (3) analyzes highly ranked
risks; (4) mitigates risks with adequate corrective actions; (5) monitors the
implementation of the corrective actions to ensure that mitigation is effective;
and (6) promotes a culture of integrity and ethical compliance throughout the
FBI.

The Integrity and Compliance Program

       The ICP’s goal is to prevent FBI employees from violating the laws and
policies that govern their work: (1) through operation of the FBI’s Ethics and
Standards of Conduct program, which entails providing guidance and training
that emphasize the importance of complying with laws and policies, and of
reporting non-compliance; and (2) by identifying and reducing legal compliance

       19  U.S. Department of Justice Office of the Inspector General, Review of the Federal
Bureau of Investigation’s Use of National Security Letters (March 9, 2007). Under five statutory
provisions, the FBI can use National Security Letters to obtain – without a court order –
records such as customer information from telephone companies, Internet service providers,
financial institutions, and consumer credit companies.


U.S. Department of Justice                                                              1
Office of the Inspector General
Evaluation and Inspections Division
risks in FBI operations FBI-wide and at the program level. There are also plans
to expand the ICP’s risk identification and mitigation efforts to FBI field
divisions in the future.

       The ICP is a multi-level program and involves staff at various levels of the
FBI. At the FBI-wide level, FBI executives identify, analyze, and mitigate legal
compliance risks that affect the FBI as a whole and that may involve
coordination between more than one functional area within the FBI, and
sometimes outside of, the FBI to resolve. At the program level, FBI program
managers identify, analyze, and mitigate risks within their programs that can
be resolved through changes internal to those programs. FBI employees
participate in the ICP through several committees and groups, and through
direct interaction with the FBI’s Office of Integrity and Compliance (OIC), which
manages the ICP. The FBI’s Inspection Division and the FBI’s Office of General
Counsel also have ongoing roles in risk identification and mitigation, and other
FBI employees take part in the ICP as needed.

       In the sections below we describe in more detail the OIC’s role in
managing the ICP and in risk identification and mitigation at the FBI-wide
level, program level, and in FBI field divisions.

Office of Integrity and Compliance

      The OIC is an independent office within the Office of the FBI Director. Its
mission is to “develop, implement and oversee a program that ensures that
there are processes and procedures in place that facilitate FBI compliance with
both the letter and spirit of all applicable laws, regulations, and policies.”20
The OIC does this by managing the ICP’s risk identification, analysis, and
mitigation efforts at the FBI-wide and program levels (which we discuss later in
this Background section), managing the FBI’s Ethics and Standards of Conduct
Program, and by maintaining channels of communication for reporting
compliance concerns. The OIC is also responsible for assessing the ICP. The
OIC is led by an Assistant Director and consists of one Unit Chief, nine
Attorneys, two Management Program Analysts, one Supervisory Special Agent,
and one administrative staff member. The OIC’s staff members are the only
FBI employees who work exclusively on the ICP.




       20   FBI Policy Directive 0002D, FBI Integrity and Compliance Program, June 25, 2007.


U.S. Department of Justice                                                           2
Office of the Inspector General
Evaluation and Inspections Division
The OIC is responsible for managing the FBI’s Ethics and Standards of Conduct
Program.

       In 2007, the FBI’s Ethics and Standards of Conduct Program became a
part of the ICP and is managed by the OIC. The purpose of the Ethics and
Standards of Conduct Program is to “promote an organizational culture that
encourages ethical conduct and a commitment to compliance with the law.”21
The FBI refers to this as “a culture of compliance.” The program includes
ensuring that the FBI complies with financial disclosure reporting
requirements; conducting training for new employees on FBI and government
ethics policies and providing in-service ethics training and information to
existing employees; maintaining up-to-date policies and guidance on ethics
requirements; and responding to employees’ specific questions about whether
certain activities are allowable. For example, employees may need help
knowing when and if they are allowed to accept gifts or whether they need to
report certain activities. In addition to these activities, the OIC assesses the
FBI’s “culture of compliance” using questions it added to the FBI employee
survey. The FBI conducts this survey of its employees every 18 months to
assess the employees’ perspectives on topics related to their work environment.

The OIC is responsible for maintaining “open and effective” communication for
reporting compliance concerns.

      To fulfill its responsibility to maintain open and effective communication,
the OIC developed FBI policy directives and human resource initiatives that
outline the roles and responsibilities of FBI divisions, ICP committees, and
employees (see Appendix I). For example, the ICP requires that all FBI
employees report any known or suspected violations of law or FBI policy that
they observe.22

      In September 2008, the OIC established a Compliance Helpline for FBI
employees to call to report compliance concerns anonymously. The helpline is
operated by a contractor that receives the calls and relays the reported
concerns to the OIC. Employees can also report concerns directly to OIC staff
using any method, including telephone, e-mail, mail, or in person. The OIC
assesses each concern, forwards it to the FBI division to which it pertains,
and – unless the concern was reported anonymously – contacts the employee


       21 Office of Integrity and Compliance, FBI Integrity and Compliance Program: An
Overview, slide presentation, May 19, 2010.

       22FBI Policy Directive 0003D, FBI Integrity and Compliance Executive Management
Committees Charter, June 25, 2007.


U.S. Department of Justice                                                          3
Office of the Inspector General
Evaluation and Inspections Division
who reported the concern to tell them how the FBI division to which it was
assigned will address it.

      Additionally, the OIC established human resource initiatives to
encourage the reporting of compliance concerns. These initiatives included the
addition of compliance elements to employee performance appraisals, the
establishment of awards that reward employees who support the ICP, and the
creation of a non-retaliation policy that states that “employees must be
comfortable raising compliance concerns without fear of retaliation.”23

The OIC is responsible for assessing the ICP.

       FBI policy also assigns responsibility for assessing the ICP’s performance
to the OIC. Specifically, policy requires the OIC to evaluate the effectiveness of
the ICP through an annual report and to support the ICP in evaluating risk-
mitigation measures.

FBI-wide Risk Identification and Mitigation

       In July 2007, the ICP established a method through which FBI
executives identify and address FBI-wide compliance risks through a series of
steps: identification, prioritization and selection, analysis, mitigation, and
audit. OIC staff members manage each step, and different FBI committees and
employees provide the subject matter expertise needed at each step. The
following sections present the roles and responsibilities as well as the steps
taken to identify and mitigate FBI-wide legal compliance risks.

The Integrity and Compliance Council oversees the ICP and five committees of
FBI executives identify and mitigate FBI-wide risks.

      Integrity and Compliance Council. The Integrity and Compliance Council
oversees the ICP and meets three times a year.24 It is chaired by the FBI
Director, and its members are the Deputy Director, the Associate Deputy
Director, the five Executive Assistant Directors, the Chief Financial Officer, the
General Counsel, and the Assistant Director of the OIC, who attends meetings
and provides reports on the activities of the ICP. As Council Chairperson, the
Director designates the top 10 compliance risks confronting the FBI. The
Director may also identify risks for analysis.

         FBI Policy Directive 0032D, Non-retaliation for Reporting Compliance Risks,
        23

February 11, 2008.

        24   FBI Policy Directive 0004D, FBI Integrity and Compliance Council Charter, June 25,
2007.


U.S. Department of Justice                                                             4
Office of the Inspector General
Evaluation and Inspections Division
       Executive Management Committees. Executive Management Committees
meet quarterly to identify risks for the FBI to address, select which risks to
analyze and mitigate, and discuss the status of mitigation plans previously
initiated.25 There are five Executive Management Committees, one for each of
the FBI’s five branches or functional areas (see Table 1). An Executive
Assistant Director chairs each Executive Management Committee. Committee
membership includes the Assistant Directors of each division within that
branch, the Assistant Director of the OIC, and representation from the Office of
the General Counsel. At least one OIC staff member also attends. FBI policy
also states that representatives from small, medium, and large FBI field
divisions participate in the Executive Management Committees.




       25FBI Policy Directive 0003D, FBI Integrity and Compliance Executive Management
Committees Charter, June 25, 2007.


U.S. Department of Justice                                                       5
Office of the Inspector General
Evaluation and Inspections Division
    Table 1: Executive Management Committees and Their Corresponding 

                               Divisions 


  Executive Management Committee                             Division
 Administrative                       Office of Equal Employment Opportunity Affairs
                                      Facilities and Logistics Services Division
                                      Finance Division
                                      Human Resources Division
                                      Inspection Division
                                      Office of Congressional Affairs
                                      Office of Law Enforcement Coordination
                                      Office of Public Affairs
                                      Office of Professional Responsibility
                                      Records Management Division
                                      Resource Planning Office
                                      Security Division
                                      Training Division
 Criminal, Cyber, Response, and       Criminal Investigative Division
 Services                             Cyber Division
                                      Critical Incident Response Group
                                      International Operations Division
                                      Office of Victim Assistance
 Information Technology               Office of the Chief Knowledge Officer
                                      Information Technology Engineering Division
                                      Information Technology Management Division
                                      Information Technology Operations Division
 National Security                    Counterintelligence Division
                                      Counterterrorism Division
                                      Directorate of Intelligence
                                      Weapons of Mass Destruction Directorate
 Science and Technology               Criminal Justice information Services Division
                                      Laboratory Division
                                      Operational Technology Division
 Source: FBI Organizational Chart.



There are five steps for addressing compliance risks at the FBI-wide level.

       The FBI addresses compliance risks at the FBI-wide level in five steps:
risk identification, risk prioritization and selection, risk analysis, risk
mitigation, and audit. The process is displayed in Figure 1 and discussed
below.




U.S. Department of Justice                                                     6
Office of the Inspector General
Evaluation and Inspections Division
                 Figure 1: Risk Identification and Reduction of 

                        FBI-Wide Legal Compliance Risks 





                      Source: OIG analysis of FBI program directives.




U.S. Department of Justice                                              7
Office of the Inspector General
Evaluation and Inspections Division
       Risk Identification. The Director, Executive Assistant Directors, and
Assistant Directors identify potential risks within their functional branch or
division. The OIC also compiles summaries of potential legal compliance risks
identified through its own research and from concerns reported by FBI
employees. The OIC provides these summaries – known as Leading Risk
Indicator Reports – to the Executive Management Committees to consider when
they meet to prioritize and select new risks to analyze, tailoring the summaries
to each of the committees’ subject areas. The Assistant Director of the OIC
also ensures that committees select new risks to mitigate when the mitigation
is complete for risks previously selected.

       Risk Prioritization and Selection. After an Executive Management
Committee identifies potential risks, it selects which ones to analyze. To assist
the committee members in comparing and prioritizing risks based on a specific
set of factors, the OIC created a risk assessment methodology based on the
best practices of corporate compliance programs. To apply the methodology,
participants determine a numeric score for each risk based on the frequency of
the activity, consequence of non-compliance, and the probability of non­
compliance. The first six factors below help determine the probability of non­
compliance. The seventh factor helps determine the consequence of the
activity. Participants also consider the potential for legal action and
reputational harm to the FBI when assessing consequence.

      1.	 Complexity. Does activity occur in multiple locations or
          internationally, involve external agencies, or have many legal
          requirements?

      2.	 Internal Risk Indicators. Is there a history of compliance issues? Is
          there an existing process to assess risk in the area?

      3.	 External Risk Indicators. Have other agencies had problems with the
          activity? Is there a trend in civil liability or overturned convictions, or
          external reports citing compliance issues?

      4.	 Environment. Is the activity new or does it require new technology? Is
          there pressure to conduct the activity?

      5.	 Workforce. Is there turnover among key personnel? Is the workforce
          experienced and adequately trained?

      6.	 Internal Work Process. Is activity manual or automated? Does it allow
          individual discretion? Does it require approval and monitoring? Are
          responsibilities clearly defined?


U.S. Department of Justice                                                    8
Office of the Inspector General
Evaluation and Inspections Division
      7.	 Impact on Privacy and Civil Liberties. Does activity affect privacy, First
          Amendment rights, individuals directly, or other civil liberties?

       The Executive Assistant Director for the committee approves the
selection of the potential risk for analysis, and the Division considered to be
most involved with the risk becomes responsible for analyzing the risk. The
Assistant Director in charge of the selected division, or the Assistant Director’s
designee, becomes the “risk owner.” The risk owner is responsible for
overseeing the analysis. If the analysis shows that mitigation is needed, the
risk owner is also responsible for overseeing the mitigation of the risk.

       Risk Analysis. After the risk has been assigned to a risk owner, the risk
owner forms a Red Team to analyze the selected risk. The Red Team, led by a
representative from the division assigned to be the risk owner, assesses the
adequacy of policies and procedures, training, and monitoring and auditing
efforts associated with the risk, and identifies compliance weaknesses. The
Red Team then produces a written report that includes a legal analysis of
applicable law and regulations; and analysis of how existing policy and
procedures, training, and monitoring and auditing efforts comply with the legal
requirements outlined in the legal analysis. The Red Team also makes
recommendations to address the weaknesses identified. Red Teams are
usually composed of one or two OIC staff members, employees who are subject
matter experts on the selected risk, and one attorney from the Office of General
Counsel, who is responsible for writing the legal analysis. Red Teams typically
have 90 days to complete their reports, but this deadline is largely dependent
upon the complexity of the issue under review.

       Risk Mitigation. If the Red Team’s risk analysis determines that a legal
compliance risk does exist, then a mitigation team is formed to design a plan to
address the issues identified in the Red Team report. The mitigation team is
led by a representative from the division assigned to be the risk owner.
Mitigation team members are often the same as the Red Team’s. If
implementation of the mitigation plan requires technical expertise, then the
OIC may request that the relevant division provide a representative with that
expertise to the team. For example, if the mitigation requires the design of
software, the OIC would request information technology specialists to assist the
team. After the Deputy Director approves the mitigation plan, the divisions
specified in the plan are then responsible for implementing the portions of the
plan they are assigned.26



       26  The OIC also can select and mitigate issues itself. For these issues, the OIC takes
the place of the Red Team and the mitigation team.


U.S. Department of Justice                                                              9
Office of the Inspector General
Evaluation and Inspections Division
       Audit. When the ICP believes that a risk mitigation plan has been fully
implemented, the OIC requests that the Inspection Division conduct an audit.
The audit verifies whether the plan has been implemented, whether the risk of
non-compliance is reduced, and whether there is non-compliance in the
activity. The Inspection Division conducts its audit after enough time has
passed for the implementation of the plan to reasonably have taken effect. If
the audit determines that the risk was mitigated, the ICP closes the risk. If the
audit shows that non-compliance risk remains, the risk owner, OIC staff, and
relevant stakeholders will develop a corrective action plan until the risk has
been fully mitigated.

       On February 3, 2011, the FBI informally established a unit within the
Inspection Division called the Compliance and Mitigation Unit. This unit was
created to plan, design, and coordinate the audits of the implemented risk
mitigation plans. The unit is led by a Section Chief and has four additional
staff members. According to the FBI, as of August 2011 this unit had not been
formally approved, but convenes regularly.

Risk Identification and Mitigation at the Program Level

       At the program level, the FBI uses a different process to identify and
mitigate legal compliance risks. FBI policy requires managers of 53 major
programs to apply compliance principles and methodology to their programs to
identify risks that can be mitigated within those programs.27 The OIC
determined which of the FBI’s programs are “major” by reviewing budget data
and consulting with the FBI’s Inspection Division. FBI senior management
reviewed and approved the list. These programs are located within
headquarters divisions. See Appendix II for the list of FBI major programs.

       Since June 2009, the OIC has required major program managers to
identify and prioritize their top three legal compliance risks for mitigation and
to submit reports twice a year to the OIC and their Assistant Directors. These
reports are to include a description of these risks and the plan for mitigating
the highest priority risk. The OIC reviews the program reports to make sure
the issues identified are legal risks, the plans to address the risk are realistic,
and that program managers are taking the steps that could reasonably be
expected to reduce the risk. According to the template program managers use
to develop risk mitigation plans, the program level should also include an audit
or a way to monitor the mitigation steps.



       27 FBI Policy Directive 0126D, Application of the Integrity and Compliance Program to
FBI Program Management, October 24, 2008.


U.S. Department of Justice                                                         10
Office of the Inspector General
Evaluation and Inspections Division
Risk Identification within FBI Field Divisions

       The FBI established the Division Compliance Officer position in 2007 to
provide a single point of contact for each division in support of the ICP and to
be the OIC’s contact in each field division.28 Twenty-seven headquarters
divisions and all 56 field divisions have designated at least one individual to
serve as their Division Compliance Officer.29 In 84 percent of field divisions
(47 of 56), the Division Compliance Officers are also the field divisions’ Chief
Division Counsels. In this capacity, the Division Compliance Officers provide
advice and training regarding the legal and ethical requirements of the FBI.

       In August 2011, the OIC submitted a draft policy to the FBI’s Corporate
Policy Office that would formally implement the ICP in field divisions. If
approved, this policy will implement division compliance councils in each field
division and will clarify the role of FBI employees serving as Division
Compliance Officers. According to the policy, the councils will provide an
additional level of risk identification and mitigation through which field
divisions are to reduce legal compliance risks.

Purpose and Scope of the OIG’s Review

      The objectives of this review were to evaluate how the FBI’s Integrity and
Compliance Program: (1) identifies risks of non-compliance with laws,
regulations, rules, and FBI and Department of Justice policies; (2) prioritizes
and selects identified risks; (3) analyzes highly ranked risks; (4) mitigates risks
with adequate corrective actions; (5) monitors the implementation of the
corrective actions to ensure that mitigation is effective; and (6) promotes a
culture of integrity and ethical compliance throughout the FBI.

       We examined the FBI’s ICP since its establishment in 2007 through
August 2011, including the roles and responsibilities of all entities that are
part of the program. We evaluated the program the FBI developed and
implemented for risk identification, assessment, mitigation, and monitoring
legal compliance risks FBI-wide and in major programs at the program level.
Our methodology included in-person and telephone interviews of FBI personnel
in the Washington, D.C., area, site visits to interview FBI field office personnel
in three field divisions, reviewing a variety of documents such as FBI policies of
the Integrity and Compliance Program and Executive Management Committee
meeting minutes, administering an e-mail questionnaire for FBI major program

       28   FBI Policy Directive 0005D, FBI Division Compliance Officer, October 1, 2007.

       29Four of the 56 field offices designated at least 2 people to be their Division
Compliance Officers.


U.S. Department of Justice                                                                11
Office of the Inspector General
Evaluation and Inspections Division
mangers, performing data analysis, and observing meetings of the Executive
Management Committees. We conducted fieldwork from July 2010 to March
2011. More details on our methodology are discussed in Appendix III.




U.S. Department of Justice                                          12
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



THE ICP IS BEGINNING TO REDUCE THE FBI’S COMPLIANCE RISK

       Through its ICP, the FBI has implemented strategies
       that have started to reduce legal compliance risk within
       FBI operations and activities. We found that, since the
       ICP’s inception in 2007, the ICP has used a variety of
       sources to identify 206 FBI-wide potential risks and 112
       program-level risks, and conducted risk analyses and
       developed mitigation plans. As a result, the FBI has
       started to reduce compliance risk by implementing
       mitigation plans for 13 FBI-wide risks and 16 program-
       level risks. Five of the implementations of FBI-wide
       plans have been audited, and we found that legal
       compliance risk was mitigated in three instances and
       not fully mitigated in two. Further, we determined that
       the process the ICP used to develop mitigation plans
       addressed the areas of compliance risk that the Red
       Teams identified in their risk analyses and involved
       relevant stakeholders. Finally, in managing the FBI’s
       ethics program, the OIC has promoted reporting of
       compliance concerns.


      The implementation of the ICP marked a fundamental change in
how the FBI identifies and manages legal compliance risks before they
develop into problems. Prior to the ICP, the FBI identified and addressed
compliance risks unsystematically through efforts that were generally
stove-piped within specific divisions. The ICP has improved FBI
management’s understanding of the FBI’s compliance risks by requiring
executives and managers to routinely and systematically identify risks.
In addition, risk analyses and mitigation plans that the ICP developed at
the FBI-wide level have the potential to reduce compliance risk because
they incorporate the input of relevant stakeholders and subject matter
experts within and outside of the FBI; address the adequacy of policy and
procedure, training, and monitoring and auditing efforts; and, if
necessary, propose significant operational and policy changes to address
the identified risk.




U.S. Department of Justice                                            13
Office of the Inspector General
Evaluation and Inspections Division
       At the FBI-wide level, we found that 3 of the 11 implemented
mitigation plans that we reviewed mitigated compliance risk in their
areas by implementing controls and operational and policy changes.30
We found that two implemented mitigation plans had not mitigated the
risk identified. The remaining six plans appeared reasonable, but we
cannot conclude that they effectively reduced compliance risk because
evidence for us to make such an assessment (such as an audit or
mitigation action that we could observe in the field) was not available at
the time our review. At the program level, we found that the ICP
implemented 16 risk mitigation strategies. However, because there is no
verification that the mitigation strategies were implemented and effective,
we cannot conclude that compliance risk was mitigated in these areas.

     The following two sections discuss the FBI’s efforts to reduce legal
compliance risk through the ICP in more detail.31

The ICP has identified risks using a variety of sources.

       The ICP identifies legal compliance risks from a variety of sources
at both the FBI-wide and the program level, as FBI policy requires.32 We
interviewed 15 FBI executives, 3 from each of the 5 Executive
Management Committees, and found that the variety of sources that they
use to identify risks includes FBI executives; program managers; field
division employees; and open source information such as policies,
oversight entity reports, and newspaper articles.

The ICP uses a variety of sources to identify FBI-wide risks.

     As of August 2011, the executives from the 5 Executive
Management Committees, corresponding to the FBI’s 5 functional
branches, and OIC staff members had collectively identified
approximately 206 potential risk indicators for consideration by the

        30 We did not review 2 of the 13 implemented mitigation plans because they
contained classified material, and we determined that access to that material was not
essential to our review.

        31The ICP is not a separate office within the FBI. Except for OIC staff members
who manage the program full-time, the remaining work of the program is conducted by
FBI employees and committees who do the work of the program in addition to their
regular duties. In this report we attribute actions to the ICP to convey that various
individuals or entities are collectively performing the ICP’s functions.

        32   FBI Policy Directive 0002D, FBI Integrity and Compliance Program, June 25,
2007.


U.S. Department of Justice                                                           14
Office of the Inspector General
Evaluation and Inspections Division
Executive Management Committees.33 Of these potential risks, FBI
executives selected 50 for analysis. The five Executive Assistant
Directors we interviewed described the way they identify risks within
their branches as drawing on their own experience and expertise and
consulting with their Assistant Directors, who they also require to
identify risks within their divisions.

       FBI executives told us that they use a variety of sources, as well as
their general knowledge of their branches, to identify FBI-wide risks. Six
of the 10 Assistant Directors we interviewed stated that they identify
risks, in part, by consulting their staff members and talking to their
employees who work in field
divisions. For example, the          Compliance Risk of FBI Employees Following
                                          Policy that Does Not Reflect Current
Assistant Directors in charge                       Presidential Order
of the Weapons of Mass
                                    A Special Agent in Charge of a field office
Destruction Directorate and         contacted a section chief in the Weapons of Mass
Operational Technology              Destruction Directorate at FBI headquarters after
Division have employees             learning that a new presidential order made
from their programs                 Immigration and Customs Enforcement the lead
embedded in field divisions.        agency on weapons of mass destruction task
                                    forces. The Assistant Director of the Directorate
The positions of these              told us he viewed this as a compliance risk for
employees allow them to             the FBI because if FBI employees adhered to the
become aware of issues              superseded policy, which assumed that the FBI
affecting the field and also to     was the lead agency, they could be out of
report the concerns they            compliance with the presidential order. He
                                    raised the issue to the Executive Assistant
identify to supervisors or          Director of the National Security Branch.
compliance officers at
headquarters. One Assistant Director told us that his Division
Compliance officer solicits risks from his program coordinators in field
divisions and that any risks identified are “rolled up” from the Unit
Chiefs to the Section Chiefs, and then to him and the Executive
Management Committees.34 He provided an example of a legal risk being
identified in the field (see text box).


       33  Before Executive Management Committees review potential risks and
determine whether they may be a concern for the FBI, the FBI considers them “potential
risk indicators.” We generated this estimate of potential risk indicators from Executive
Management Committee meeting minutes, a list of risks identified at the inception of
the ICP, and from Leading Risk Indicator Reports from the beginning of the ICP through
summer 2010.

       34  In 2007, the FBI appointed Division Compliance Officers within FBI
headquarters and each field office to provide a point of contact for each office in support
of the ICP.


U.S. Department of Justice                                                              15
Office of the Inspector General
Evaluation and Inspections Division
       To help in the identification of legal risks, the OIC provides Leading
Risk Indicator Reports to FBI executives for those quarterly meetings in
which they will select a new risk to analyze. These reports summarize
the risks pertaining to each branch that OIC staff members compile from
their research of open source information, government reports, and new
regulations, and from risks that individual FBI employees and employee
groups reported to the OIC. OIC staff members prepare separate reports
for each Executive Management Committee that summarize the legal
risks pertaining to each committee’s subject area. We analyzed the
sources identified in the reports the OIC prepared between 2008 and
2010 and found that the OIC provided FBI executives risks to consider
that OIC staff identified from sources within and outside of the FBI.

FBI managers of major programs are an additional source for risk
identification within their program areas.

       FBI policy requires managers of the FBI’s 53 major programs to
identify legal compliance risk within their program areas across
20 divisions and all 5 of the FBI’s functional branches.35 In the sample
of bi-annual reports program managers submitted to the OIC in
December 2010, we found that managers collectively identified
112 program-level legal compliance risks. Program managers from all
but 9 of the 53 programs submitted reports detailing their identified
risks. The OIC exempted one program in the Administrative Branch from
reporting because it had been recently added to the FBI’s major program
list and two programs in the Science and Technology Branch because
their managers were assisting with mitigating FBI-wide risks. Six other
programs did not submit reports. In such instances, the OIC follows up
with the program managers and directs managers to identify and submit
risks “in accordance with FBI policy” in their next bi-annual reports.

Identifying risks has increased senior management’s understanding of
the FBI’s vulnerabilities.

      Senior FBI executives we interviewed stated that the ICP facilitates
the identification of weaknesses that could result in non-compliance.
For example, in our interview with the FBI Director, he noted that in the
FBI, there is a tendency to concentrate on the agency’s mission, to keep
moving full-speed ahead, and consequently the FBI does not always
focus on the potential risks. He said that a benefit of the ICP has been


       35FBI Policy Directive 0126D, Application of the Integrity and Compliance
Program to FBI Program Management, October 24, 2008.


U.S. Department of Justice                                                         16
Office of the Inspector General
Evaluation and Inspections Division
that it identifies “gaps and vulnerabilities” and that the ICP has equipped
him with more knowledge about the compliance threats facing the FBI
and given him more confidence that there is follow-up on issues that are
identified. The FBI’s General Counsel stated that an organized,
methodical way of looking at risk is new in the FBI and that the FBI’s
culture is to not talk about problems, but rather to solve them yourself.
She stated that the ICP prompted a change in culture because executives
are now willing to say, “We have a problem with ‘x.’ ” A program manager
reiterated this view in response to our survey, stating “the process
provides for a logical analysis of legal compliance gaps.”

Through the ICP, the FBI has started to reduce legal compliance risk
by conducting risk analyses and by developing and implementing
mitigation plans.

       With the development of risk analyses and mitigation plans at both
the FBI-wide and program levels, and implementation of those plans, the
FBI has started to reduce legal compliance risks. According to the FBI,
the ICP developed 26 total risk mitigation plans to address identified
risks. Since its inception, the ICP has fully implemented 13 of the
26 mitigation plans for FBI-wide risks, and 3 of the plans have fully
mitigated the compliance risk identified.36 We determined that the
process the ICP used to develop mitigation plans at this level addressed
the areas of compliance risk that the Red Teams identified in their risk
analyses and involved relevant stakeholders. At the program level, our
review of the reports that program managers submitted to the OIC
covering mitigation work completed or initiated between December 2009
and July 2010 found that mitigation plans had been implemented for
102 risks and that OIC staff members had determined 16 of those risks
to be closed and fully mitigated.

     The following sections discuss the FBI’s efforts to reduce legal
compliance risk through the ICP in more detail.

At the FBI-wide level, the ICP has started to reduce the risk of legal non­
compliance by implementing mitigation plans.

      The ICP mitigated the compliance risk identified in three FBI-wide
areas. On the basis of two completed FBI Inspection Division audits that
found the risks to be mitigated as well as one OIG audit, we conclude


       36 Our review only addressed the 13 plans that had been fully implemented at
the time of our fieldwork.


U.S. Department of Justice                                                        17
Office of the Inspector General
Evaluation and Inspections Division
that the FBI has reduced legal compliance risks in three areas. As an
example, below we summarize one of three risks identified, the mitigation
steps taken, and the results of the audit of the mitigation steps.

       An analysis team evaluated various areas of vulnerability in the
       collection of and access to DNA information. One conclusion was
       that the delay in collecting, analyzing, and uploading DNA samples
       from federal convicted offenders, federal arrestees, and non-U.S.
       detainees to the Combined DNA Index System could lead to
       congressional inquiries, public criticism, and litigation from crime
       victims. The mitigation team developed a mitigation plan, dated
       January 24, 2008, to eliminate the existing Federal Convicted
       Offender Program backlog and minimize the probability of future
       backlogs by hiring additional staff and acquiring additional
       laboratory space and equipment. An OIG audit found that the FBI
       successfully eliminated this backlog and reduced the compliance
       risk in this area.37

      The ICP did not fully mitigate the identified risk in two FBI-wide
areas. FBI Inspection Division audits of two other implemented
mitigation plans found that the risks identified had not been fully
mitigated. In response, as of August 2011, the ICP was developing and
implementing corrective action plans as required by FBI policy. FBI
policy states that that Integrity and Compliance Council members “shall
review and assess the results of audits performed in connection with the
ICP to determine whether additional corrective measures should be
employed and make related recommendations.”38 As an example, below
we summarize one of the two risks identified, the mitigation steps taken,
and the results of the audit of the mitigation steps.

       FBI Special Agents can use administrative subpoenas to obtain
       information to support investigations involving controlled
       substances or the sexual exploitation or abuse of children. The
       ICP found that the process for obtaining administrative subpoenas
       allowed agents to use them for other types of investigations and
       that the FBI did not have a way to track the overall number of
       administrative subpoenas issued, as the Attorney General’s

       37 U.S. Department of Justice Office of the Inspector General, Audit of the

Federal Bureau of Investigation’s Convicted Offender, Arrestee, and Detainee DNA
Backlog, Audit Report 11-39 (September 2011), 19-21.

       38 FBI Policy Directive 0004D, FBI Integrity and Compliance Council Charter,
June 25, 2007.


U.S. Department of Justice                                                            18
Office of the Inspector General
Evaluation and Inspections Division
       Guidelines require.39 To mitigate this risk, the ICP developed a
       plan, dated October 11, 2007, to automate the form that agents
       use to request administrative subpoenas. The automated form was
       to include a built-in control that would limit the types of
       investigations for which agents could obtain administrative
       subpoenas. The automated system was also to track each request.

      A March 2011 FBI Inspection Division audit of the mitigation steps
found that compliance concerns remained and, as a result, the audit
made 11 recommendations for further mitigation of the administrative
subpoena compliance risk. As of August 2011, the ICP was developing a
corrective action plan and expected to have a draft in early September
2011.

      For these two risks to be mitigated, the corrective action plans
must address the findings and recommendations of the audits and be
implemented. Because in one case the corrective action plan has not yet
been implemented, and in the other case the plan has not yet been
developed, we conclude that these risks have not been fully mitigated.

      Assessment is not yet possible for six FBI-wide risk areas. The ICP
considers the mitigation plans for six risks to have been implemented.
But at the time of our review, the mitigation actions for these risks had
not been audited, and the changes were either not observable in the field
or had not been implemented when we made our site visits. As a result,
we cannot conclude that these risks have been mitigated. As an
example, below we summarize one of these six risks and the mitigation
actions proposed in the mitigation plan.

       A confidential human source is an individual who provides
       intelligence to the FBI on FBI investigative and national intelligence
       priorities. A 2005 OIG report found instances of non-compliance
       with Attorney General Guidelines in the FBI’s use of confidential
       human sources due to inadequate administrative support, failure
       to hold supervisors accountable for compliance deficiencies and to
       exercise effective oversight of agents using confidential informants,
       inadequate training on appropriate methods to operate confidential
       informants, and differences in FBI and Department informant



       39 The Attorney General’s Guidelines for Domestic FBI Operations state that the
FBI should maintain a database or records system that permits a prompt retrieval of
the status and basis for each investigation.


U.S. Department of Justice                                                         19
Office of the Inspector General
Evaluation and Inspections Division
       policies.40 Subsequent to the OIG report, the FBI formed analysis
       teams to address confidential human sources-related compliance
       risks. According to the FBI, as a result of the team findings,
       mitigation efforts were implemented to improve policy, procedures,
       and training affecting the control and use of confidential human
       sources in accordance with the OIG report and the analysis team
       recommendations.

       We believe that if the ICP effectively implemented the actions as
described in the plans for the six risks that have not yet been audited, it
is reasonable to expect that the actions will reduce compliance risk in
those areas. However, without verification that the actions were
implemented and effectively addressed the compliance risks, we cannot
reach a conclusion that risks were fully mitigated.

       The ICP’s process for developing mitigation plans includes relevant
stakeholders and has resulted in the development of comprehensive
mitigation plans. Our review of the ICP’s process for developing FBI-wide
mitigation plans found that they involved the participation of relevant
stakeholders and subject matter experts within and outside the FBI.41 In
addition, the mitigation process sometimes led to the creation of inter-
and intra-agency working groups so that the mitigation plans were
developed with the perspectives of the stakeholders and experts
knowledgeable about the risk area. At least 3 FBI divisions participated
in the mitigation of each FBI-wide risk, and in one case, 10 divisions
participated. Two of the mitigation plans required the participation of
more than one Executive Management Committee to address a technical
aspect of the risk, one required an inter-agency working group, three
required intra-agency working groups, and five required consultation and
involvement with Department executive offices. The mitigation teams
consult with Department executive offices, such as the Office of
Legislative Affairs if a mitigation plan proposes statutory changes or the
Criminal Division if a mitigation plan proposes changes that fall within
that division’s jurisdiction. FBI executives we interviewed stated that
FBI-wide risk mitigation is effective and beneficial because it involves
collaboration across FBI functional areas. For example, the FBI’s
General Counsel stated that through the ICP, everyone with a role comes


       40U.S. Department of Justice Office of the Inspector General, The FBI’s
Compliance with the Attorney General’s Investigative Guidelines (September 2005).

       41   Mitigation plans are developed based on the findings of the Red Teams’ risk
analyses.


U.S. Department of Justice                                                            20
Office of the Inspector General
Evaluation and Inspections Division
together, and the ICP “gets [them] rowing in the same direction at the
same time.”

      Our review of the mitigation plans also found that each contained
elements to address relevant compliance weaknesses, as identified in the
risk analysis. Specifically, 9 of the 11 plans proposed changes to existing
FBI policy or that new policy be drafted, and 10 of the 11 identified the
need for and recommended that existing training be modified or
additional training be developed and implemented. The plans also
proposed significant changes in operations to reduce compliance risk,
including the design and deployment of new software and equipment, as
well as changes to Department policy and federal legislation.

      In addition to implementing mitigation plans for FBI-wide risks,
the ICP has also implemented 16 program-level risks. We discuss these
below.

At the program level, the ICP implemented mitigation strategies for
16 risks.

       In our review of the reports that program managers submitted to
the OIC covering their program-level risk mitigation work completed or
initiated between December 2009 and July 2010, we found that program
managers had identified a total of 112 risks.42 OIC staff determined that
16 risks had been closed and fully mitigated and that program managers
had begun mitigating 86 additional risks. For the remaining 10 risks
that managers identified, mitigation procedures had not begun. Because
the ICP does not require independent verification of program-level
mitigation actions to confirm that the actions were actually completed
and effective, we cannot conclude that the actions reduced compliance
risk in these areas. However, as we explain in more detail below, we note
that the mitigation actions for 5 of the 16 risks that the OIC considered
closed established internal controls that we believe could reasonably be
expected to reduce the risk. In contrast, the remaining 11 risks did not
provide for any monitoring of the mitigation actions and thus provided
less assurance of effectiveness.

      The mitigation actions for five program-level risks included either an
internal audit or the implementation of an automated system that would
reduce the likelihood of human error. We conclude that these controls

       42  These are the risks mentioned in the reports we reviewed for one reporting
cycle. If program-level risks were identified and mitigated in previous reports, they
would not be included in this total.


U.S. Department of Justice                                                              21
Office of the Inspector General
Evaluation and Inspections Division
appear reasonable to reduce compliance risk. As an example, below we
discuss one of the five compliance risks and the controls program
managers described in their report.

       The Surveillance and Aviation Program mitigated a risk of non­
       compliance with the Federal Aviation Administration’s
       requirements for pilot currency and safe aircraft operations. The
       program mitigated the risk by adding three new elements to the
       annual field division inspections that FBI instructor pilots conduct.
       Specifically, instructor pilots examine divisions’ compliance with
       safety and security requirements, make sure pilots’ training is up
       to date, and verify that field divisions comply with all FBI aviation
       procedures.

       The OIC determined that 11 additional risks had been mitigated.
For all 11 risks reviewed, we found that none included the
implementation of a control or any kind of monitoring to help ensure
ongoing compliance, nor did the program assess the effectiveness of the
mitigation actions. For example, the National Name Check Program,
which disseminates information from FBI files to other federal agencies
when requested, identified a risk that an inadvertent release of protected
information might occur. To mitigate the risk, the program developed a
standard operating procedure. It also required all National Name Check
Program employees to attend annual training covering the guidelines for
disseminating certain information. However, other than the Quality
Assurance Program that was already in place, which reviews about
10 percent of outgoing work, no monitoring was put into place to see if
the training was successful or if the risk of inadvertent disclosure was
addressed.

      In some cases, there may be a monitoring mechanism in place, but
in current practice existing monitoring or its results are not necessarily
shared with the OIC. If the OIC is not aware of monitoring and the
program does not report the results of monitoring efforts, there is still no
way to ensure that the risk mitigation occurred and was effective.
Without some kind of monitoring of the risk and verification that the
actions stated in the mitigation plan were actually performed and
resulted in the needed changes, it is not possible to know whether the
steps were effective and actually reduced the risk.




U.S. Department of Justice                                               22
Office of the Inspector General
Evaluation and Inspections Division
The OIC manages the FBI’s ethics program and promotes reporting
of compliance concerns.

      The OIC supports the ICP’s objective of reducing compliance risk
by promoting the reporting of compliance and ethical concerns within the
FBI. The OIC does this by managing the FBI’s Ethics and Standards of
Conduct program (ethics program). The OIC also established human
resource initiatives that encourage compliance and communication
channels for FBI employees to report compliance concerns.

The OIC maintains and has enhanced the FBI’s ethics program.

       In 2007, the FBI transferred responsibility for maintaining the
ethics program from the Office of General Counsel to the OIC. According
to the 2008 State of the Integrity and Compliance Program report,
combining the ethics program with the OIC’s compliance program allows
the FBI to better coordinate and build on the experience of the personnel
in both programs.

       The OIC enhanced the ethics program by creating new ethics
videos and creating and revising printed ethics information. The OIC
created a video in 2008 to highlight the importance of the ICP that
features the FBI Director and is shown as part of the new employee and
in-service ethics training. Additionally, the OIC developed a video
discussing and reinforcing the FBI’s core values.43 The OIC also created
and distributed a brochure advising FBI employees to report compliance
and ethics concerns to the OIC or the appropriate FBI headquarters
division and revised the FBI Employee Ethics Handbook. OIC attorneys
also receive calls and e-mails regarding ethics questions and provide
legal opinions in response. For example, FBI employees contact the OIC
for guidance regarding travel and the acceptance of gifts. One OIC
attorney stated that in 1 year, he received and responded to more than
2,500 ethics questions.




       43  FBI core values are (1) rigorous obedience to the Constitution of the United
States; (2) respect for the dignity of those we protect; (3) compassion; (4) fairness;
(5) uncompromising personal integrity and institutional integrity; (6) accountability by
accepting responsibility for our actions and decisions and the consequences of our
actions and decisions; and (7) leadership, both personal and professional.


U.S. Department of Justice                                                             23
Office of the Inspector General
Evaluation and Inspections Division
The FBI has established initiatives to encourage compliance and ethical
behavior within the FBI.

       The FBI supported the ICP by establishing human resource
initiatives to encourage compliance and ethical behavior. In 2007, the
FBI incorporated risk mitigation efforts into executive management’s
performance appraisals. In February 2008, the FBI established a non-
retaliation policy that specifically prohibits retaliation against employees
for reporting compliance concerns to support a work environment in
which there is “open communication regarding compliance risks.”44 The
FBI also established a Director’s award to recognize outstanding
employee contributions to the ICP and a Compliance Helpline to facilitate
reporting of compliance concerns. Finally, in 2009, the FBI added an
addendum to all FBI employee performance appraisals reminding
employees to follow the guidelines outlined in the FBI Ethics and
Integrity Program Manual and, in order to receive an outstanding rating,
to support an environment in which co-workers understand the
importance of and are comfortable raising compliance concerns.

       To assess whether the FBI supported the intent of the ICP by not
violating the retaliation policy, we examined all complaints of retaliation
by FBI employees between January 2007 and February 2011. We found
that in no case did an employee report a compliance concern to the OIC
and later report retaliation for making that report.

       To assess whether these initiatives were helping to encourage
compliance and ethical behavior, we assessed whether FBI employees
were aware of and receiving the Director’s award the OIC established.
We found that as of August 2011, 40 FBI employees had received the
award since 2008, when the OIC first awarded it. Of those 40 employees,
35 were from headquarters and 5 were from the field divisions. During
our field visits, we asked interviewees if they were aware of this award.
We found that only 13 percent (8 of the 64) of field division employees we
asked were aware of the award. While this is understandable given that
the ICP has so far been a largely headquarters-centric program, as the
ICP is further implemented in field divisions, the FBI should raise
awareness about this award to field division employees.

    Finally, we assessed whether FBI employees were aware of the
Compliance Helpline that the OIC created to facilitate the direct reporting

       44 The FBI non-retaliation policy does not expand or contract any
“whistleblower” protection that may be available to FBI employees pursuant to 5 U.S.C.
§ 2303 and Department of Justice regulations set out in 28 C.F.R. Part 27.


U.S. Department of Justice                                                         24
Office of the Inspector General
Evaluation and Inspections Division
of compliance concerns by FBI employees. While the OIC established
and began receiving calls over the Compliance Helpline in September
2008, we found that only 20 percent (14 of 70) of the field division
employees we asked were aware of it. As of October 2010, the OIC had
received 47 Helpline calls from FBI employees, of which 22 were from
field division employees. Field division employees need to be aware of the
Helpline’s existence for it to be an effective way of reporting compliance
concerns.

Conclusions and Recommendation

       The FBI, through the ICP, has started to implement legal
compliance risk reduction strategies within its operations and activities
by identifying and mitigating risks before they become problems. As of
August 2011, the ICP had identified 206 FBI-wide potential risk
indicators and 112 program-level risks from a variety of sources,
including FBI executives, program managers, employees, and open
source information such as newspaper articles and government oversight
reports. The ICP implemented mitigation plans for 13 FBI-wide risks
and, according to the reports that program managers submitted to the
OIC, 16 program-level risks. As of August 2011, we conclude that the
ICP’s implemented mitigation strategies reduced compliance risk in three
FBI-wide risk areas.

        The OIC also enhanced the ethics program by establishing
initiatives to encourage compliance and ethical behavior within the FBI.
However, we found that only 20 percent (14 of 70) of the field division
employees we asked were aware of the Helpline the OIC established to
facilitate direct reporting of compliance concerns and that only
13 percent (8 of the 64) of field division employees we asked were aware
of the Director’s award the OIC established to recognize contributions to
the ICP.

      For the ICP to increase its effectiveness in encouraging compliance
and reporting of compliance concerns, we recommend that the FBI:

   1. Increase employee awareness of the Compliance Helpline and other
      OIC human resource initiatives.




U.S. Department of Justice                                             25
Office of the Inspector General
Evaluation and Inspections Division
ADDRESSING AREAS FOR IMPROVEMENT COULD ENHANCE THE
ICP’S EFFECTIVENESS

       The FBI could improve the ICP’s effectiveness and
       sustainability by addressing certain factors. We found
       that FBI executives and managers no longer consistently
       use the ICP’s risk assessment methodology designed for
       the ICP to evaluate identified risks, and the risk
       assessment and selection process is unsystematic and
       undocumented. In addition, at the program level, there
       is no external verification that mitigation actions are
       complete and effective.         Because of this lack of
       monitoring, the FBI cannot be sure that the ICP has
       successfully implemented the risk reduction strategies
       for the selected risks. Also, the ICP has not yet been
       fully implemented in field divisions, and as a result, field
       divisions’ role in risk identification and reporting to the
       ICP is undeveloped. Finally, the OIC, which manages the
       ICP, has not established a way to evaluate the program’s
       overall effectiveness or the effectiveness of its processes.
       Without evaluation, the ICP cannot identify where
       changes in the program should occur or ensure the
       sustainability of the ICP.


      We identified areas for improvement in the ICP at both the FBI-
wide and program levels involving the use of its risk assessment
methodology, verification of risk mitigation strategies, and
implementation of the ICP in field divisions. We discuss the areas for
improvement and their impact on the effectiveness and sustainability of
the ICP in the following sections.

FBI executives and managers are not using the ICP’s risk
assessment methodology, and the risk selection process is informal,
unsystematic, and undocumented.

       We found that executives and managers are making minimal use of
the risk assessment methodology the FBI developed to assist them in
applying their professional judgment to the assessment and selection of
risks. The ICP does not require this tool to be used. The FBI based this
methodology on its research of best practices in corporate compliance
programs, and it reflects the factors the FBI deemed important in
considering risks to be addressed through the ICP. To prioritize risks,
participants calculate a numeric score for each risk based on the

U.S. Department of Justice                                            26
Office of the Inspector General
Evaluation and Inspections Division
frequency of the activity, the probability of non-compliance, and the
consequence of non-compliance. The risk assessment methodology uses
seven factors that we described in the background section of this report.
The first six factors help calculate the probability of non-compliance.
These factors are: complexity, internal risk indicators, external risk
indicators, environment, workforce, and internal work process. The
seventh factor, impact on privacy and civil liberties, helps determine the
consequence of the activity. Participants also consider potential for legal
action and reputational harm to the FBI when calculating consequence.

       At the FBI-wide level, we found that as of fall 2010, FBI executives
no longer consistently used the risk assessment methodology. Instead,
ICP participants use their own, ad hoc criteria to prioritize risks.
Interviewees from four of five Executive Management Committees told us
that they did not use the methodology at all, and that they assessed risk
through informal discussion before and during the quarterly Executive
Management Committee meetings. Interviewees in the fifth Executive
Management Committee told us that certain members of their committee
sometimes used the FBI’s methodology.45 The criteria most of the
executives used included overall impact or seriousness, protecting the
reputation of the FBI, the availability of human resources to work on
mitigating the risk, the probability of the risk’s occurrence, the scope of
the risk, negative financial impact, asking “what happens if we do
nothing,” and “what would we not want to read in the paper.” While
these are reasonable and important considerations – and many of them
are incorporated into the risk assessment methodology – the FBI’s
current practices do not ensure that managers will consider them
consistently. The Executive Management Committees’ risk prioritization
and selection are also not documented. While an attendee at each
Executive Management Committee meeting takes minutes that include
updates about the mitigation actions for risks undergoing mitigation, the
minutes do not document how participants prioritized or selected risks
for analysis.

      Similarly, at the program level, we found that program managers’
use of the methodology was limited. Based on our survey results of
program mangers, we concluded that program managers used their
professional judgment alone to assess risk more often than the
methodology. Only 29 percent (13 out of 45) of the managers who
responded to our survey reported using the methodology or the criteria in


        We interviewed 15 FBI executives, 3 from each of the 5 Executive
       45

Management Committees.


U.S. Department of Justice                                                 27
Office of the Inspector General
Evaluation and Inspections Division
it to select risks when asked, “What do you use to determine the legal
compliance risk to mitigate?” The remaining 71 percent (32 out of 45)
gave a variety of answers that did not coincide with use of the
methodology. While professional judgment is essential, its value to the
process can be increased if it is focused through the FBI’s risk
assessment methodology. We found that program managers describe the
risks they have identified and their plans to mitigate them in written
reports to the OIC, but these reports do not explain why they chose one
risk over another or document the relative significance of the risks.
Program risk identification relies primarily on written communication
with the OIC two times per year and does not require in-person contact
between OIC staff members and managers. This sporadic involvement
may not allow for sufficient understanding among program managers of
how risks should be assessed and selected.

       We believe that use of a risk methodology does not exclude the use
of professional judgment and knowledge in making the assessment;
rather, it enhances the use of professional judgment. Further, when FBI
executives and managers do not use the risk assessment tool, they
cannot demonstrate that they considered each risk against the factors
the FBI considers important. For example, one of the factors used in the
methodology to assess the significance of a risk’s consequence is its
impact on privacy and civil liberties. In fact, FBI violations of privacy
and civil liberties in its use of National Security Letter authority were
what prompted the FBI to establish the ICP.46 However, only 33 percent
(5 of 15) of the executives we interviewed said they considered this factor
when they made their assessments. The other 10 may have also
considered this factor, but they did not articulate that to us when we
asked them what factors they considered when assessing risks. Using a
formal methodology would give consistency to risk assessment and
selection by ensuring that current and future participants consider the
criteria the FBI deems important when assessing risk. This is an
important consideration because the ICP’s participants are unlikely to
remain constant due to turnover within the FBI and the FBI plans to
expand the ICP to include more FBI field division participation.




       46 U.S. Department of Justice Office of the Inspector General, Review of the
Federal Bureau of Investigation’s Use of National Security Letters (March 9, 2007).


U.S. Department of Justice                                                            28
Office of the Inspector General
Evaluation and Inspections Division
The ICP does not require external verification for major program
mitigation efforts, and the OIC lacks the authority to require
program-level participation

       At the program level, we found that the ICP lacks a way to ensure
that risk reduction strategies are implemented and that they are effective
at reducing compliance risks. First, program-level mitigation does not
include any independent assessment of implemented strategies. Because
of this lack of follow-through, the FBI cannot be sure that the mitigation
steps were implemented and that compliance risk was reduced. Second,
OIC staff oversees the program-level risk mitigation, but does not have
the authority to require program managers to participate. We found that
six program managers did not participate as mandated by FBI policy.

       In our sample of the reports that program managers submitted to
the OIC covering activities completed, ongoing, or initiated from January
through June 2010, we found that no mitigation actions were verified by
an independent group, such as the FBI Inspection Division, individuals
from another division, or even the OIC. We saw 24 instances in the
sample where OIC staff members asked program managers to provide
information about audit, monitoring, or “perceived effectiveness” of risk
mitigation efforts, indicating that the OIC intended to use information
about how well risk reduction strategies worked in its assessment.
However, in no case did a program have an external verification to
ensure that the mitigation actions had been taken and to assess the
effectiveness of those actions. Verification could be as simple as
someone checking that the plan is implemented and operational, and
that the risk appears to be mitigated. Without this step, the ICP cannot
ensure that managers’ mitigation actions are complete or effective.

      While FBI policy mandates major program managers’ participation
in the ICP, we found that this did not always occur.47 Specifically, 6 of
53 programs did not submit written reports to the OIC, as required. In
these instances, the OIC directed managers to identify and submit risks
“in accordance with FBI policy” in their next bi-annual reports. OIC staff
members manage program-level risk mitigation but do not have authority
to require programs to participate. Assistant Directors could ensure that
managers participate, but in our interviews only one of nine Assistant
Directors we asked about program-level risk mitigation told us that he
was aware of it, even though all nine were included in the distribution


       47FBI Policy Directive 0126D, Application of the Integrity and Compliance
Program to FBI Program Management, October 24, 2008.


U.S. Department of Justice                                                         29
Office of the Inspector General
Evaluation and Inspections Division
list for the reports about the risk mitigation activities. Moreover, the one
Assistant Director who was aware of program-level risk mitigation
questioned its value.

       We believe that success at the program level depends not only on
the work of program managers and OIC staff, but also the Assistant
Directors’ involvement and buy-in. Unlike the FBI-wide level of risk
identification and mitigation, where senior executives meet quarterly with
the OIC and the progress about risks is reported monthly to the FBI
Director, at the program level, managers work more independently, often
without any in-person interaction with OIC staff members. Program
managers submit their reports to OIC staff members two times per year,
and then the OIC staff review and provide feedback to the program
managers. The Assistant Directors are included on the distribution lists
for the reports from program managers to the OIC and then from the OIC
to program managers, but their participation is not required.

      For program-level risk mitigation to be an effective tool for reducing
compliance risk, it should include verification that the mitigation actions
were taken and are effective. The verifications should examine the risk
mitigation efforts and make a determination about whether compliance
risk was reduced. In addition, involving Assistant Directors would
ensure that they were aware of the risks their managers were addressing
and that program managers prioritized program-level risk mitigation.

The ICP is not fully implemented in field divisions.

       Although the majority of the ICP’s risk identification and mitigation
activities currently take place at FBI headquarters, the OIC intends for
field division employees to play a role in identifying compliance concerns.
The ICP plans to establish field division compliance councils that will
identify and mitigate risks, and has established a Division Compliance
Officer position within field divisions to coordinate each field division’s
council. However, the focus of the ICP thus far has been to implement
the program at headquarters, and no formal structure has been
established yet to implement the ICP in FBI field divisions.

       In response to the 2007 creation of the Division Compliance Officer
position, field divisions appointed officers, but as of fall 2010, the OIC
had not fully developed or utilized this position, and the OIC’s Assistant
Director described it as “a latent role.” The three Division Compliance
Officers we interviewed in the field divisions we visited stated that they
did not yet perform any additional tasks because of that role. They told
us that, as their divisions’ Chief Division Counsels, they already

U.S. Department of Justice                                                30
Office of the Inspector General
Evaluation and Inspections Division
performed most the duties that the Division Compliance Officer policy
established, such as providing legal and ethics advice and ethics training
to FBI employees.48 The one duty that these three Division Compliance
Officers did not currently perform was coordination with the OIC.

        Additionally, as of August 2011 the ICP had not established a
method to identify and mitigate compliance risks in field divisions. What
we observed in 2010 seemed largely unchanged from the OIC’s
assessment in 2008 when it wrote in the State of the Integrity and
Compliance Program report that the “compliance portion of the program
is still relatively unheralded beyond headquarters.” We found that field
division employees were more likely to report compliance concerns to
officials within their field divisions rather than to the OIC. During our
site visit interviews, field division employees told us that they preferred to
handle issues within their field divisions rather than to involve
headquarters. Seventy of the 75 field division employees we interviewed
told us that when they have a legal or a compliance-related question,
they seek assistance from their Chief Division Counsels first. All three
field Chief Division Counsels we interviewed (who also served as their
field divisions’ Division Compliance Officers) indicated they would resolve
issues within the field division if possible. While resolving issues at the
lowest possible level is generally preferable, if potential legal compliance
issues are not consistently reported to the OIC – even if they are solved at
the field division level – broader issues may not be recognized.

       In August 2011 the OIC’s Assistant Director submitted a draft
policy to the FBI’s Corporate Policy Office that would formally implement
the ICP in field divisions. This policy would require each field division to
establish a compliance council that would be required to meet at least
twice a year. These councils would identify potential compliance risks
and determine whether they constitute actual compliance risk within the
division. For risks identified that pose a compliance risk within the
division, the council would develop, implement, and track to completion
mitigation plans. The council would inform the OIC of FBI-wide
compliance risks and risks that could affect multiple field divisions. This
policy would clarify the role of the Division Compliance Officer and
require the Division Compliance Officer to be a field division senior
manager “not lower than an Assistant Special Agent in Charge” because
“for the ICP to succeed in the field, the ICP point of contact needs to have
a certain level of authority.” Assistant Special Agents in Charge have


       48In 47 of 56 of field offices the Chief Division Counsel serves as the Division
Compliance Officer.


U.S. Department of Justice                                                                31
Office of the Inspector General
Evaluation and Inspections Division
more authority than Chief Division Counsels. Although they will no
longer serve as Division Compliance Officers, the Chief Division Counsels
would continue to administer the field divisions’ ethics program, provide
legal advice, and respond to compliance concerns. The Division
Compliance Officer would lead the compliance council whose
membership would include the Chief Division Counsel and other field
division staff.

       Having input from field divisions will help the ICP have a complete
picture of compliance risks in FBI operations. Ten of 15 FBI executives
we interviewed stated that field input to the ICP was important.49 One
Executive Assistant Director stated that he wanted “risks to come from
everyone because there may be additional perspectives or perceived
risks.” Similarly, the FBI’s General Counsel stated that she expected the
ICP would be getting field input because “we operate in the field” and
“risks exist in the field.” Because field division employees are more likely
to report compliance concerns to officials within their field division rather
than to headquarters, the effectiveness of the ICP’s efforts to ensure that
risks identified in the field are reported to the ICP depends on the
development of the ICP in field divisions.

The OIC has not established a way to assess the ICP’s overall
effectiveness or to measure progress toward achievement of ICP
goals.

       While the OIC is responsible for assessing the ICP, it has not
evaluated the effectiveness of the ICP’s risk identification and mitigation
efforts at either the FBI-wide or program level nor has it measured its
progress toward achievement of the ICP’s goals since 2008. The OIC has
not created the annual report of the ICP’s activities that FBI policy
requires since 2008, and it does not track the ICP’s progress toward
attaining the program’s goals. The OIC’s tool for measuring the FBI’s
culture of compliance does not substitute as a way to measure the
performance of the ICP. Without a way to assess the ICP and a way to
measure progress toward accomplishment of the ICP’s goals, the OIC
cannot determine the ICP’s effectiveness at reducing compliance risk or
identify where changes in the program should occur to ensure the
sustainability of the ICP.

      The 2008 report summarized the elements of the ICP, the goals of
the ICP, the steps the OIC took or planned to take to accomplish the

       49  The other five executives may consider field input important but did not
specifically state that during interviews.


U.S. Department of Justice                                                            32
Office of the Inspector General
Evaluation and Inspections Division
ICP’s goals, and assessed how the ICP was doing so far.50 According to
the OIC’s Assistant Director, the report was discontinued because it was
too time consuming to write and duplicative of a monthly report that the
OIC prepared for the FBI Director. This monthly report shows the status
of all FBI-wide risks the ICP is mitigating, the degree to which the ICP
has implemented each mitigation plan, and whether it considers any part
of the mitigation process to be delayed. However, the monthly report
does not provide information about the status of program-level risks,
overall accomplishments of the ICP, challenges to the ICP, or information
about whether the ICP is accomplishing its goals or future plans.

       The OIC Assistant Director told us that the ICP uses responses to
ethics- and integrity-related questions on the FBI’s employee survey to
assess the FBI’s culture of compliance (see Appendix V). While the
survey data provides a useful assessment of the culture of compliance, it
does not provide an adequate assessment of the ICP’s performance.
While the efforts of the ICP may contribute to the positive ethical climate
and culture of compliance, the survey cannot distill what aspects of the
culture of compliance are attributable to the ICP’s efforts, as opposed to
other activities in the FBI. It is not possible to know whether or to what
degree the ICP’s activities have affected the culture based on the survey
because the survey results have been consistently high year after year
and were already high at the time of the creation of the ICP. An FBI
survey analyst told us that the data over 3 years does not show any
statistically significant trends.

       While it is difficult to objectively evaluate the ICP, we believe the
OIC could evaluate the extent to which the ICP effected shifts in the FBI’s
culture of compliance and changes in how the FBI manages compliance
risk. A consolidated annual report similar to the FBI’s 2008 State of the
Integrity and Compliance Program report would be a tool for FBI
executives and OIC management to gauge the ICP’s effectiveness; to
review progress toward completing planned activities, strengths of, and
challenges to the program; would increase awareness about the ICP; and
would show what impact the ICP has had on the FBI.

Conclusions and Recommendations

      We identified areas for improvement in the ICP at both the FBI-
wide and program levels that, if addressed, could enhance its


       50The ICP goals are described as strategic shifts. These are summarized in
Appendix IV.


U.S. Department of Justice                                                          33
Office of the Inspector General
Evaluation and Inspections Division
effectiveness and sustainability. We found that FBI executives and
managers do not use the risk assessment methodology designed for the
ICP to evaluate identified risks and that risk assessment and selection is
unsystematic and undocumented. The FBI cannot address all potential
risks simultaneously because each risk requires significant resources to
analyze and mitigate. Thus, it is important that the ICP produce a
common understanding of risks’ relative priority so that executives and
managers select those potential risks that most closely align with the
criteria contained in the risk assessment methodology.

       In addition, at the program level, the ICP does not have external
verification nor is it able to ensure full participation by major programs.
Because of this lack of external verification and because there is a lack of
involvement by officials with the authority to require program manager
participation, the FBI cannot be sure that the ICP has successfully
implemented the mitigation actions for the selected risks.

       Also, the OIC has not yet fully implemented the ICP in field
divisions, and as a result, field divisions’ role in risk identification and
reporting to the OIC is undeveloped. Finally, the OIC has not established
a way to evaluate the ICP’s overall effectiveness or the effectiveness of its
processes. Without this, the FBI cannot identify where changes in the
ICP should occur and ensure the sustainability of the program.

      To ensure the sustainability and improve the effectiveness of the
ICP, we recommend that the FBI:

   2. Consider using a formal methodology that includes specific criteria
      that participants must consider when assessing and prioritizing
      risk.

   3. Increase Assistant Director involvement in program-level risk 

      mitigation. 


   4. Require program-level risks to include a verification step.

   5. Comply with existing requirements for an annual report assessing
      the effectiveness of the ICP, for example, a report that articulates
      the program’s goals, shows progress toward accomplishing them,
      and identifies areas for improvement.




U.S. Department of Justice                                                34
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



       We conclude that the FBI, through the ICP, has started to reduce
the FBI’s risk of legal non-compliance and that the ICP has the potential
to further reduce risk by identifying risks and making the operational
and policy changes necessary to mitigate them before they become
problems. As of August 2011, the ICP’s implemented mitigation
strategies reduced compliance risk in three FBI-wide risk areas. Further,
the ICP improved the FBI’s ability to identify its potential compliance
risks by, for example, using a variety of sources to identify potential
risks. We believe that the concept of the FBI’s OIC program has been
beneficial to its efforts to monitor and enhance compliance with legal
requirements, and that other agencies may wish to consider
implementing a similar kind of program. We found that the ICP’s
process for developing mitigation strategies resulted in comprehensive
plans that, if implemented as described, we believe would reduce
compliance risk in those areas.

       We identified several areas in the ICP that, if refined, could
improve the ICP’s ability to reduce legal compliance risk and the ICP’s
sustainability. The OIC manages the FBI’s ethics program and promotes
reporting of compliance concerns, and has enhanced the program by
establishing new initiatives to encourage compliance and ethical behavior
within the FBI. However, we found that only 20 percent (14 of 70) of the
field division employees we asked were aware of the Helpline the OIC
established to facilitate direct reporting of compliance concerns. Only
13 percent (8 of the 64) of field division employees we asked were aware
of the Director’s award the OIC established to recognize contributions to
the ICP. For these initiatives to be effective, FBI personnel must be
aware of them.

       In addition, we found that FBI executives and managers do not use
the risk assessment methodology designed for the ICP to prioritize
identified risks and that risk prioritization and selection is informal,
unsystematic, and undocumented. It is important for the ICP to produce
a common understanding of risks’ relative priority so that executives and
managers select, analyze, and mitigate those that most closely align with
the criteria contained in the risk assessment methodology.

      Further, at the program level there is no external verification that
mitigation actions were completed and were effective. Because of this
lack of monitoring, the FBI cannot be sure that the ICP successfully
implemented the mitigation actions for the identified risks.

U.S. Department of Justice                                               35
Office of the Inspector General
Evaluation and Inspections Division
       Also, the OIC has not yet fully implemented the ICP in field
divisions, and as a result, field divisions’ role in risk identification and
reporting to the OIC is undeveloped. Finally, the OIC has not established
a way to evaluate the ICP’s overall effectiveness or the effectiveness of its
processes. Without this, the FBI cannot identify where changes in the
ICP should occur and ensure the sustainability of the program.

      To ensure the sustainability and improve the effectiveness of the
ICP, we recommend that the FBI:

   1. Increase awareness of the Compliance Helpline and other OIC
      human resource initiatives.

   2. Consider using a formal methodology that includes specific criteria
      that participants must consider when assessing and prioritizing
      risk.

   3. Increase Assistant Director involvement in program-level risk 

      mitigation. 


   4. Require program-level risks to include a verification step.

   5. Comply with existing requirements for an annual report assessing
      the effectiveness of the ICP, for example, a report that articulates
      the program’s goals, shows progress toward accomplishing them,
      and identifies areas for improvement.




U.S. Department of Justice                                                36
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX I: FBI COMPLIANCE PROGRAM POLICIES 



   FBI Corporate
                        Date Approved                           Summary
       Policy
                                            Establishes the Integrity and Compliance Program
                                            and the Office of Integrity and Compliance and
Integrity and
                                            describes their responsibilities. Additionally, it
Compliance Program,      June 25, 2007
                                            explains the roles of the Inspection Division and
0002D
                                            the Office of General Counsel in the Integrity and
                                            Compliance Program.
Integrity and
                                            Describes the membership of each Executive
Compliance Executive
                                            Management Committee, and the membership’s
Management               June 25, 2007
                                            roles and responsibilities in the Integrity and
Committees Charter,
                                            Compliance Program.
0003D
Integrity and                               Details the purpose of the Integrity and
Compliance Council       June 25, 2007      Compliance Council, its members, and the
Charter, 0004D                              members’ roles and responsibilities.
                                            States that each division must appoint a Division
                                            Compliance Officer. This policy establishes that
Division Compliance
                         October 1, 2007    the Division Compliance Officer, which is a
Officer, 0005D
                                            collateral duty, is to provide a single point of
                                            contact for each field division.

                                            Integrates the Integrity and Compliance Program
                                            into executive management performance
Executive Performance
                                            appraisals. Specifically, it requires that FBI
Appraisals -             October 1, 2007
                                            executive management review and mitigate each of
Compliance, 0006D
                                            the number-one compliance risks identified by the
                                            five Executive Management Committees.

                                            States that FBI management shall train their
Non-Retaliation for                         personnel on ways to report compliance risks. It
Reporting Compliance    February 11, 2008   also encourages employees to report compliance
Risks, 0032D                                concerns, and prohibits retaliation against anyone
                                            who reports them.

Application of the                          Identifies the FBI programs the Integrity and
Integrity and                               Compliance Program considers “major.” In
Compliance Program      October 24, 2008    addition, this directive states that major programs
to FBI Program                              must prioritize their top three risks and mitigate
Management, 0126D                           them one at a time in order of priority.

                                            Describes the process the Office of Integrity and
Compliance Risk
                        October 24, 2008    Compliance must follow when compliance risks
Referrals, 0136D
                                            are reported.




U.S. Department of Justice                                                                  37
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX II: LIST OF FBI MAJOR PROGRAMS 



  1.   Facilities Management and Acquisition Program
  2.   Fleet Management & Transportation Services Program
  3.   Secure Work Environment Program
  4.   Applicant Program
  5.   Executive Development & Selection Program
  6.   Healthcare/Medical Services Program
  7.   Human Resource Information Systems Program
  8.   Human Resources Management Program
  9.   Freedom of Information Privacy Acts Program
 10.   National Name Check Program
 11.   Information Assurance Program
 12.   Personnel Security Program
 13.   Training Program
 14.   Defensive Systems Program
 15.   Civil Rights Program
 16.   Gang/Criminal Enterprise Program
 17.   Organized Crime Program
 18.   Public Corruption/Civil Rights Program
 19.   Undercover and Sensitive Ops Program
 20.   Violent Crimes Program
 21.   Financial Crimes Section/Health Care Fraud
 22.   Critical Incident Response Program
 23.   Surveillance and Aviation Program
 24.   Computer Intrusion Program
 25.   Cyber Crime Program
 26.   Legat Attaché Program
 27.   IT Engineering Program
 28.   IT Management Program
 29.   IT Services Program
 30.   Knowledge Management Program
 31.   Counterintelligence Program
 32.   Domestic Terrorism Program
 33.   International Terrorism Program
 34.   Foreign Terrorist Tracking Taskforce Program
 35.   Foreign Language Program
 36.   Human Intelligence Program
 37.   Intelligence Program
 38.   Weapons of Mass Destruction
 39.   Biometric Interoperability Program
 40.   IAFIS/Interoperability Program
 41.   Law Enforcement National Data Exchange Program

U.S. Department of Justice                                  38
Office of the Inspector General
Evaluation and Inspections Division
 42.   Next Generation Identification Program
 43.   Biometrics (Biometric Center of Excellence) Program
 44.   Combined DNA Index System Program
 45.   Field Evidence Program
 46.   Operational Response Program
 47.   Advanced Electronic Surveillance and Search Program
 48.   Digital Evidence Forensics Program
 49.   Radio Program
 50.   Specialized Support and Coordination Program
 51.   Tactical Operations Program
 52.   Technical Personnel and Defensive Program
 53.   Video Physical Surveillance Program




U.S. Department of Justice                                   39
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX III: METHODOLOGY OF THE OIG REVIEW 



       We conducted in-person and telephone interviews of FBI personnel
in the Washington, D.C., area, conducted site visits to interview field
division personnel, and reviewed policies of the Integrity and Compliance
Program. We conducted document reviews, performed data analysis,
observed meetings of the Executive Management Committees, and
attended an Ethics and Compliance Officers Association’s annual
conference. We also developed an e-mail survey for FBI program
mangers.

Interviews

       We interviewed 118 FBI officials and staff members at
headquarters and field divisions, and 3 non-FBI personnel. The 37 FBI
headquarters-level interviews provided information on the overall
operations of the ICP. Of the 118 interviews of FBI staff, 81 were
conducted at field divisions and provided insight into the current level of
field involvement in and awareness of the ICP. We conducted the three
non-FBI interviews to learn about corporate compliance programs. See
below for a list of officials interviewed during the review.

 Organization                         Interviewees by Position
                FBI Director
                Associate Deputy Director (former Executive Assistant Director,
                Criminal, Cyber, Response and Services Branch)
                Executive Assistant Director, National Security Branch
                Executive Assistant Director, Science & Technology Branch
                Executive Assistant Director, Information Technology Branch
 Integrity      Executive Assistant Director, Human Resources Branch
 and            General Counsel
 Compliance     Assistant Director, Criminal Investigative Division
 Council &
                Assistant Director, Information Technology
 Executive
 Management     Assistant Director, Directorate of Intelligence
 Committee      Assistant Director, Critical Incident Response Group
 Participants   Assistant Director, Operational Technology Division
                Assistant Director, Weapons of Mass Destruction Directorate
                Assistant Director, Human Resources Division
                Section Chief, Special Technologies and Applications Office
                Chief Knowledge Officer
                Deputy Assistant Director, Training Division



U.S. Department of Justice                                                        40
Office of the Inspector General
Evaluation and Inspections Division
 Organization                         Interviewees by Position
                Assistant Director, Office of Integrity and Compliance
 Office of      1 Unit Chief
 Integrity
                9 Attorneys
 and
 Compliance     1 Supervisory Special Agent
                2 Management Analysts
                Assistant Director, Inspection Division
 Inspection     Deputy Assistant Director, Inspection Division
 Division       Section Chief, External Audit and Compliance, Inspection Division
                Chief Inspector, Inspection Division
 Other FBI      Chair, Middle Management Committee
 Personnel      Unit Chief, Criminal Investigative Division
                In the Knoxville Field Division, we interviewed the Special Agent in
                Charge, the Chief Division Counsel (serves as the Division
                Compliance Officer), and 17 other staff consisting of Assistant Special
                Agents in Charge; Supervisory Special Agents; Special Agents;
                Intelligence Analysts; Technical Information Specialists; a Support
                Supervisor; and an Auditor.
                In the Sacramento Field Division, we interviewed the Special Agent in
                Charge, the Chief Division Counsel (serves as the Division
                Compliance Officer), and 30 other staff consisting of Assistant Special
 Field
                Agents in Charge; Supervisory Special Agents; Special Agents;
 Division
                Intelligence Analysts; a Support Services Technician; a Supervisory
 Personnel
                Administrative Specialist; a Victim Specialist; an Investigative
                Operations Analyst; a Electronic Surveillance Technician; and an
                Auditor.
                In the Miami Field Division, we interviewed the Special Agent in
                Charge, the Chief Division Counsel (serves as the Division
                Compliance Officer), and 28 other staff consisting of Assistant Special
                Agents in Charge; Supervisory Special Agents; Special Agents;
                Intelligence Operations Specialists; a Supervisory Intelligence
                Analyst; a Support Operations Specialist; and a Support Supervisor.
                Chief Executive Officer, Society of Corporate Compliance and Ethics
 Non-FBI
                Consultant to the FBI’s Office of Integrity and Compliance
 Interviewees
                Special Agent, Investigations Division, Office of the Inspector General

Site Visits

       To assess the perspectives of field employees, we conducted site
visits to the FBI’s Knoxville, Miami, and Sacramento field divisions and
interviewed employees about identifying and reporting compliance risks.
We selected these field divisions based on a series of criteria, such as size
of the office, type of investigation, and field office scores on FBI employee
survey questions that the OIC added to assess the culture of compliance.


U.S. Department of Justice                                                           41
Office of the Inspector General
Evaluation and Inspections Division
Document Reviews and Data Analyses

       To determine the scope of the ICP and to understand how it
functions, we reviewed policy directives governing the ICP, OIC
brochures, information about ICP awards, and who has received them,
routine directives from the OIC to field divisions, and FBI ethics
materials. We also examined documentation from the ICP’s risk
identification, mitigation, and audit process including Integrity and
Compliance Council and Executive Management Committee meeting
minutes; risk analyses, mitigation plans, and audits; and program-level
reports. To gain information about the program-level process for
assessing and selecting risk we surveyed program managers from the
FBI’s major program areas and performed qualitative analyses of their
responses. We also reviewed FBI’s Inspection Division self-inspection
reports for the FBI field divisions we visited to determine how these
reports could be used in risk identification.

       We analyzed Leading Risk Indicator Reports from 2008 through
2010 to determine what sources the ICP used in identifying potential
risks, reviewed compliance concerns reported to the OIC via its Helpline
and other sources to determine whether FBI employees were reporting
compliance concerns to the ICP, and compared reports of compliance
concerns against reports of retaliation to determine whether any
employee was retaliated against for reporting a compliance concern. We
also examined results from the FBI’s 2007, 2008, and 2009 climate
survey to assess whether a culture of compliance existed within the FBI.

       To understand how program managers of the FBI’s major programs
participated in the ICP, we reviewed a sample of FBI program manager
reports covering activities initiated or completed between December 2009
and June 2010. These reports included information from 53 programs
about risks being identified and mitigated, and OIC feedback about the
information program managers submitted.

Observations

      To see the ICP process firsthand, we observed meetings of three
Executive Management Committees in July 2010. In addition, we
attended the Ethics and Compliance Officers Association’s annual
conference in September 2010 to gain a greater understanding of
corporate compliance programs upon which the FBI’s ICP is based.




U.S. Department of Justice                                              42
Office of the Inspector General
Evaluation and Inspections Division
Program Manager Survey

       To learn more about how the ICP was implemented at the program
level, we developed a nine-question e-mail survey for FBI program
managers. The questions included the number of risks program
managers had identified, the criteria used to identify risk, and ways the
program benefitted them as well as any suggestions program managers
had regarding the ICP process. We distributed the survey to 54 FBI
program managers or their designees in the FBI’s 53 major programs,
and 48 managers responded representing 49 programs.51




       51Some major programs had more than one program manager, and six program
managers that responded represented more than one program.


U.S. Department of Justice                                                  43
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX IV: FBI STRATEGIC SHIFTS ANTICIPATED BY OIC 



               The Strategic Shifts the OIC Anticipated from 

                        Implementation of the ICP 

     Pre-ICP Establishment                        Post-ICP Establishment
                 Cultural Changes in Views About Compliance Risk
                                 Compliance is viewed as integral to mission
Compliance is viewed as an
                                 accomplishment, and is incorporated into day-to­
obstacle to mission
                                 day operations, decision making and work
accomplishment
                                 processes
                                 Employees know and understand laws and policies
Compliance is a senior           of their work, ask questions, and report non
leadership concern only          compliance
                                 Managers teach employees rules
                                 Employees comfortable with raising compliance
Non-compliance is enforced       concerns
through punitive measures        Managers do not retaliate for and act on reports of
                                 non-compliance
                                 Performance evaluation based on ability to identify
Performance evaluation based     programs, practices, and activities that may pose
on inspection and audit findings risks, determine causes of future failure points and
                                 mitigate those risks
                  Structural Changes in Managing Compliance Risk
Scope is periodic, limited to
                                    Scope is continuous, enterprise-wide, and proactive
certain programs, and reactive
                                    and forward looking
and backward looking
Internal communications are         Internal communications are proactive, enterprise-
reactive, diffused, difficult to    wide, unified, easily accessible and top down and
find, top-down                      bottom-up
Risk identification stove-piped
                                    Risk identification and mitigation at all levels and
and primarily located in
                                    divisions
Inspection Division
Mitigation is ad hoc and reactive   Formal structure with oversight
                                    Conducted by a cadre of full time compliance
Conducted as collateral duty
                                    professionals
Resources are allocated in          Resource requests and allocations are driven by
reaction to compliance issues       risk identification, prioritization and mitigation

Note: The “strategic shifts” are an articulation of the ICP’s goals. These goals are
changes in the way the FBI views and manages compliance as a result of the ICP.

Source: The FBI’s 2008 State of the Integrity and Compliance Program report.




U.S. Department of Justice                                                               44
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX V: FBI EMPLOYEE SURVEY QUESTIONS 



                   Employee Survey Question                         2007    2008   2009
Following the law is just as important as accomplishing the
                                                                    4.54    4.56   4.73
mission
If my supervisor tells me to ignore a minor procedure
established by laws, regulations or policies, I assume he or she
                                                                    3.91    3.95   4.09
has a good reason and will follow orders without asking for
those reasons
Sometimes it is necessary for me to ignore the literal
requirements of a law, regulation or policy to meet the FBI         4.02    4.09   4.11
mission
FBI employees who comprise the general workforce set a
positive example for their peers and coworkers by adhering to       4.16    4.22   4.10
applicable rules, regulations, and policies
I am reluctant to report incidents of non-compliance with
applicable rules, regulations, and policies due to the possible     3.84    3.90   3.90
consequences of reporting them
If I see someone else engaging in misconduct, I will report it to
                                                                    4.07    4.06   4.09
the appropriate authorities
FBI executive management has made clear that a commitment
                                                                    4.08    4.12   4.20
to ethics, integrity, and compliance is an institutional priority
I am able to identify and communicate key risks within my            Not
                                                                            3.98   4.00
area of responsibility                                              asked
The importance of risk management and control has been
                                                                     Not
communicated to me through specific training, supervisor                    3.79   3.87
                                                                    asked
communications, and policy and practice in my squad or unit.
I understand the level of risk I can take on behalf of the FBI
                                                                     Not
involving override or alteration of internal control procedures             3.66   3.73
                                                                    asked
or policies
I can easily find authoritative, usable policy information          3.31    3.32   3.06
Management is receptive to all communications about risk,
                                                                    3.12    3.58   3.60
including bad news
I believe FBI executive managers set a positive example for the
organization by adhering to applicable rules, regulations, and      3.33    3.46   3.56
policies

Note: Survey respondents answer each question depending on their level of agreement
with the statement on a scale of 1 (strongly disagree) through 5 (strongly agree).
However, some questions are worded negatively; therefore, they are re-coded so that the
higher number is always better. The FBI then computed an average of responses to
generate a score between 1 and 5.
Source: FBI employee survey.




U.S. Department of Justice                                                           45
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX VI: FBI RESPONSE TO DRAFT REPORT 




                                                                     U.S. n "'pa rl me nl o r ,I uslice

                                                                     Federal Bure:tu of Investigation



                                                                     1I". hm~'mt,   D C .'Qjjj
                                                                       N()\cmbcr 14. 2011




      C)mhia A. SchncduT
      Acting InspeclOr Gcm:rul
      Ollice of the InspcclOr Genen,l
      U.S. Dcpanrnent of Justice
      Suite 4706
      950 I'ennsyhania Avenue. NW
      Washington. D.C. 20530

       Dear lI..ls. Schne(!:!r:

                          The Federnl Il ure:tu of Ir1\ e'ltigation (I' BI)   appr~'ciates   the opportunil) to   reI   iell
      nnd respond to your dmfl report 011 "'1he Federal Bureau ()f            Investigation'~    Integrit) und
      Compliullee I'rogrmn IIC I' I.··

                           Compli:tnee II ith the Constitution. iudi\ idu:ll and institutional integrit). :md
      :teeountability arc core "llues or the 1' 01. Further. it is our policy 10 comply full} \ljth all laws
      and rules governing our operations and 10 adhere to the highest ~tundards of cthical conduct. To
      beller implcmem thm poli~y and ud":lIlee our Core Values. \\e establish~'d Ihe ICP. Wl' note that
      tht' report fou nd till' Oniee of Integrit~ and Compliance has "enlmneed" the Fill's elhi~s program
      and "promOtCS" reponing or compliance concerns. We ar~' also pleased thai the n.:pon found thaI.
      "It]hrough the [CI'. Ihe FBI implemented slrategi<,s thm ho\c sloned to reduce legal compliance
      risk in FBI opcrmions.'" The reporl Slates Ihat the IeI' establishes n "syslellimic proccss tor risk
      identi lic:llion·· :tnd has impro\ed FBI senior management's kno\lledge or. and responS{.: 10.
      eOll1pli,lIlce risks. We agree "ilh the repon Ihatthe implementation oflhe le i' m;lrh'd;l
      "fundament,,1 change" in ho\\ the FB I identities and manages legal compliance risks bdorc the~
      devclop into prohlcms. Wc ure proud til hale la[..en Ihis SICI) towa rds good govl.'rn:lIlec.

                        I' ncloscd herein ;lfe Ihe FBI's responses to the rcporl's recommendations. Please
      feel free 10 conl:tct me:tl 202-324·(ilQ9 sh()uld )OU hale any questions or need fu nht'r
      infonllalion.

                                                                    Sinc<;Tcly.




                                                                    'E~K~'"~
                                                                     As~isl:lIlt
                                                                               Din;elOr
                                                                     Office orJrnegrit} (md Compliance


      Enclosure




U.S. Department of Justice                                                                                                     46
Office of the Inspector General
Evaluation and Inspections Division
                                        OIG Review of the FBI's
                                   Integrity and Compliance Program

        Recommendation #1 - Increase awareness or tbe Compliance Helpline and other OIC
        buman resoun::e initiatives.

        FBI Response to Recommendation #1:
        The Office of Integrity and Compliance (OIC) concurs with this recommendation. In Fiscal
        Year (FY) 12, OIC intends to develop and implement a plan to increase awareness ofthc
        Compliance Helpline and other OIC human rcsourcc initiatives such as the Director's
        Compliancc Award.

        Recommendation #2 - Consider using a form al methodology that indudes specific criteria
        tbat participant! must consider when assessing and prioritizing risk.

        FBI Response to Recommendation #2:
        OIC concurs with this recommendation. When OIC was formcd, a formal ris k assessment
        methodology was developed as one of many tools to assist managemcnt in the identification of
        potcntial risks. OIC still uses this risk methodology tool and periodically trains leadership on its
        use to ensUIC Exccutive Management Committee (EMC) participants understand and consider
        this criteria when assessing and prioritizing risk. During this past round of EMC meetings in
        October and November of201 1, OIC providcd training to each committee on thc risk assessment
        methodology. Thcsc criteria were identified as one tool which should be considered in
        conjunction with a variety of other factors impacting the risk a.~sess mcnt and prioritization
        process. These other factors include staffing limitations (on either OIC or on the risk owner),
        resource limitations. and the risk owner's mission priorities. All of these ractors should be taken
        into consideration when seleeting II risk. Using the corporate compliance sector as a model, OlC
        believes that compliance is the business of each executive. Each FBI exeeutive is uniquely
        positioned to understand and ap preciate his or her fisk areas and mission. Ultimately. OIC defers
        to the executive in the selection of a potential risk for analysis.

        Recommendation #3 - Increase Assistant Directof involvement in program-level ri.'lk
        mitigation.

        FBI Response to Recommendation #3:
        OIC concurs with this recommendation. Pursuant to FI31 Corporate Policy Di~tive 0126D, all
        managers of major programs must submit their semi-annual compliance risk report "up to and
        including the Assistant Director level and Ole." Pursuant to this Directive, OtC will remind
        major program managers of this requirement in the coming year. During this most recent set of
        quarterly EMC meetings, OIC provided training to each commince, to include Assistant
        Directors. A component of this training addressed thc reporting requirement for major program
        managers and reminded Assistant Directors of their rolt: in the process.

        RecommendatioD #4 - Require program_level risks to include a verificatioD step.




U.S. Department of Justice                                                                                     47
Office of the Inspector General
Evaluation and Inspections Division
        FHI Response 10 Rl'Cummendatinn IU
        ole ('{lnC UTS with this rccUIIlllll'ndatiun. Stamng limitations, howevcr, constrain Ole's anility to
        verify mitigation efforts for every risk reported by 53 major programs. In FY 12, ole will
        establish 11 random ve rifi c<ltion process for Imtior progrmns and will require verificati on of
        mitig<ltion efforts for a sampling of programs during each of the two reporting peri ods.

        ReeOlnmcndatioll #S - Comply with l'Xistin g requirements fOI" :111 a lUlUal l·epOI"l assessi ng
        the etTectjwness of the le p; fUI" I':\a mpl e, a I"1'purt that articui:ltes the pl"ogr.lIu 's gua ls,
        s h ows pl"ogress tmnlrds accomplishin g them , and id entifies areas fur impJ"(wement.

        t·OI Rcspons(' to ){«omlll('ndation #5:
        ole (-onClm; with this recomm~ndation. It bears noling thaI at pr~senl , o le provides 11 monthly
        compli<lnce updale Chat1 10 every senior ~xec uti ve within the FBI. ChI a q l~lrt erly basis, each
        branch holds a mt"eling to discuss its compli,ulce risks. ole uses these meetings to provide
        training, update on risks and to articulate program initiatives. ll1ree times per year, senior
        executives meet with the Director ofthe FBI to discuss compliance risks. Similar to the
        quarterly meetings. ole uses this medium as a way to provide updates on Ole initiatives and
        risk anal ysis and mi tigation cfforts.




U.S. Department of Justice                                                                                       48
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX VII: OIG ANALYSIS OF FBI RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Federal Bureau of Investigation for its comment. The report
contained five recommendations for consideration. The FBI’s response is
included in Appendix VI to this report. The OIG’s analysis of the FBI’s
response and the actions necessary to close the recommendations are
discussed below.

Recommendation 1. Increase awareness of the Compliance Helpline
and other OIC human resource initiatives.

       Status. Resolved – open.

      Summary of the FBI Response. The FBI concurred with the
recommendation and stated that in fiscal year (FY) 2012, the OIC intends
to develop and implement a plan to increase awareness of the
Compliance Helpline and other OIC human resource initiatives such as
the Director’s Compliance Award.

       OIG Analysis. The actions taken and planned by the FBI are
responsive to our recommendation. By February 29, 2012, please
provide the OIG with a plan that describes the specific actions the OIC
will take to increase awareness of the Compliance Helpline and other OIC
human resource initiatives, and the dates by which the OIC plans to
complete those activities, or a status of your progress.

Recommendation 2. Consider using a formal methodology that
includes specific criteria that participants must consider when
assessing and prioritizing risk.

       Status. Resolved – open.

       Summary of the FBI Response. The FBI concurred with this
recommendation and stated that “when the OIC was formed, a formal
risk assessment methodology was developed as one of many tools to
assist management in the identification of potential risks,” and that the
OIC still uses this risk methodology tool. According to the FBI, the OIC
provided training on the methodology to Executive Management
Committee members during committee meetings in October and
November 2011. The training presented the methodology as “one tool
which should be considered in conjunction with a variety of other


U.S. Department of Justice                                               49
Office of the Inspector General
Evaluation and Inspections Division
factors” such as staffing limitations, resource limitations, and the risk
owner’s mission priorities in assessing and prioritizing risk.

       OIG Analysis. The actions taken by the FBI are responsive to our
recommendation. By February 29, 2012, please provide the OIG
documentation of the October and November 2011 training, including
the training materials and a list of who attended.

Recommendation 3. Increase Assistant Director involvement in
program-level risk mitigation.

       Status. Resolved – open.

      Summary of the FBI Response. The FBI concurred with this
recommendation and noted that pursuant to FBI Corporate Policy
Directive 0126D, “all managers of major programs must submit their
semi-annual compliance risk report up to and including the Assistant
Director level and OIC.” The FBI also stated that the OIC will remind
major program managers of this requirement in the coming year.
Further, the FBI stated that the most recent quarterly Executive
Management Committee meetings included training that “addressed the
reporting requirement of major program managers and reminded
Assistant Directors of their role in the process.”

       OIG Analysis. The FBI’s actions are responsive to our
recommendation. However, we note that so far, submitting the program
manager reports to the Assistant Directors has not resulted in sufficient
Assistant Director involvement in program-level risk mitigation. By
February 29, 2012, please provide documentation of the reminders of the
reporting and participation requirements given to Assistant Directors, a
description of the role Assistant Directors will have in program-level risk
mitigation, and the specific actions the FBI will take to increase their
involvement. Additionally, please provide documentation that all major
programs required to participate in program-level risk mitigation did
participate. If the OIC exempted any major programs, include the reason
for the exemption.

Recommendation 4. Require program-level risks to include a
verification step.

       Status. Resolved – open.

     Summary of the FBI Response. The FBI concurred with our
recommendation and stated that in FY 2012, the OIC will establish “a

U.S. Department of Justice                                                  50
Office of the Inspector General
Evaluation and Inspections Division
random verification process for major programs and will require
verification of mitigation efforts for a sampling of programs during each
of the two reporting periods.” The FBI added that because of staffing
limitations, the OIC will not be able to verify mitigation efforts for every
risk reported by 53 major programs in every cycle.

      OIG Analysis. The FBI’s actions are responsive to this
recommendation. By February 29, 2012, please provide a specific
description of how the OIC will conduct its verification process to ensure
that each program is sampled every 2 years. In addition, please provide
the results of all the verifications that the OIC completes by February
2012.

Recommendation 5. Comply with existing requirements for an
annual report assessing the effectiveness of the ICP, for example, a
report that articulates the program’s goals, shows progress toward
accomplishing them, and identifies areas for improvement.

       Status. Resolved – open.

       Summary of the FBI Response. The FBI concurred with our
recommendation. The FBI also noted several existing processes for
updating managers about current compliance efforts. These processes
include the OIC providing a monthly compliance update chart to every
senior executive within the FBI; the use of Executive Management
Committee quarterly meetings for the OIC to provide training, update
participants on risks, and articulate program initiatives; and that three
times per year, senior executives meet with the Director of the FBI to
discuss compliance risks.

       OIG Analysis. Although the FBI concurred with our
recommendation, its response did not describe how it would respond to
the recommendation that it produce an annual report of the ICP’s
effectiveness. We note that while the monthly updates and discussions
during meetings that the FBI describes in its response are useful, they
are not a replacement for an annual report that articulates the program’s
goals, shows progress toward accomplishing them, and identifies
challenges and areas for improvement. By February 29, 2012, please
provide a description of the FBI’s plan for satisfying the recommendation
that it produce an annual written report of the ICP’s activities and
effectiveness.




U.S. Department of Justice                                                 51
Office of the Inspector General
Evaluation and Inspections Division
